No. ______

In the Supreme Court of the United States
________
CHARLES MAXWELL,
Petitioner,
v.
STATE OF OHIO
Respondent.
________
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO
________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
OFFICE OF THE OHIO PUBLIC DEFENDER
Rachel Troutman [0076741]
Supervising Attorney
Death Penalty Department
Adrienne M. Larimer [0079837]
Assistant Public Defender
Death Penalty Department
Natalie S. Presler [0098535]
Assistant Public Defender
Death Penalty Department
250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Rachel.Troutman@opd.ohio.gov
Adrienne.Larimer@opd.ohio.gov
Natalie.Presler@opd.ohio.gov
Counsel for Petitioner Charles Maxwell

A-1

APPENDIX A

COURT OF, APPEALS OF OHIO

EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
STATE OF OHIO,

WAY 212020

|
I

Plaintiff-Appellee,

:

No. 107758
v.

:
I

CHARLES MAXWELL,

:
i

Defendant-Appellant.

:

JOURNAL ENTRY AND OPINION
■

I

JUDGMENT: AFFIRMED
RELEASED AND JOURNALIZED: May 21, 2020
,

!
i

Civil Appeal from the Cuyahoga County Court of Common Pleas
Case No; CR-05-475400-A

Appearances:
I

I

Michael C. O’Malley,' Cuyahoga County Prosecuting
Attorney, and Katherine Mullin, Assistant Prosecuting
Attorney, for appellee.

Timothy Young, Ohio, Public Defender, and Rachel
Troutman, Adrienne M. Larimer, and Natalie Presler,
Assistant State Public Defenders, for appellant.

KATHLEEN ANN KEOUGH, J.:
I

■

1 ■

{U1} Defendant-appellant, Charles Maxwell, appeals the trial court’s
decision denying his motion for postconviction relief. For the reasons that follow,
we affirm the trial court’s decision. ;

113394959

A-2

APPENDIX B

i
i

{U 2} In 2007, Maxwell was convicted by a jury and sentenced to death for

the aggravated murder of Nichole McCorkle. The Supreme Court of Ohio affirmed
his convictions and death sentence in State v. Maxwell, 139 Ohio St.3d 12, 2014-

1

Ohio- 1019, 9 N.E.sd 930, reconsideration denied, State v. Maxwell, 139 Ohio

St.3d 1420, 2014-0100-2487, 10 ik.E.sd 739 (“Maxwell”).
Supreme Court denied certiorari.

The United States

: .

{If 3} On August 11, 2008, while his direct appeal was pending before the
:
I'
Ohio Supreme Court, Maxwell timely filed a petition for postconviction relief,

1 relief.
1' He filed a first amendment to the petition
whichI set forth 12 grounds for
I
■
I
two days later along with a motion for discovery. Two weeks later, Maxwell filed a

second amendment to the petition.

In October 2008, the trial court denied

Maxwell’s request for discovery, and the state filed its opposition to Maxwell’s

'

I

1

petition. In November 2008, the state filed with the trial court proposed findings

of fact and conclusions of law, requesting denial of Maxwell’s petition.
{U 4} On September 2, 2016; the trial court summarily denied Maxwell’s

petition. On August 31, 2018, the trial court adopted the state’s second proposed
1

i

findings of fact and conclusions of law.

Maxwell now appeals, raising four

assignments of error for our review.
I. Denial of Discovery

[U 5} In his first assignment of error, Maxwell contends that the trial court
i:
erred by denying his postconviction petition without allowing him to conduct
I

I

discovery. He argues that without the opportunity to conduct discovery, he was

i :

A-3

unable to fully produce evidence outside the record to withstand his burden to

I

|'

support his postconviction claims to warrant an evidentiary hearing.
{U 6} The decision to grant of deny a request for discovery with respect to a

petition for postconviction relief rests within the trial court’s discretion. State v.
Broom, 146 Ohio St.3d 60, 2Oi6-0hio-iO28, 51 N.E.sd 620, | 28. The long­

standing rule in Ohio is that a convicted criminal defendant has no right to
additional or new discovery, whether under Crim.R. 16 or any other rule, during

postconviction relief proceedings!
I

State ex rel. Love v. Cuyahoga Cty.

,

Prosecutor’s Office, 87 Ohio St.sd 158,159, 718 N.E.2d 426 (1999), citing State v.
i

'

'

Spirkg, 127 Ohio App.sd 421^ 429, 713 N.E.2d 60 (3d Dist.1998). Nevertheless,
1I

Maxwell contends that discovery may be warranted when the “petitioner sets forth

operative facts that demonstrate a substantive claim for relief.” State v. McKelton,

12th Dist. Butler No. CA 2O15LO2-O28, 2Oi5-Ohio-4228,141.
{U 7} In this case, we find no abuse of discretion. As will be discussed in
I

addressing his third and fourth assignments of error, Maxwell’s petition for

postconviction relief did not set forth sufficient operative facts justifying additional
(
I
discoyery. Moreover, Maxwell has not demonstrated how he was prejudiced by the
I

denial to conduct additional discovery. We note that his petition, which raises 12

grounds for relief, is supported with over 20 exhibits, including affidavits from

both lay persons and experts, court filings, police reports, and medical records. It
i

does riot appear that Maxwell’s presentation of materials to support his petition

was constrained in any way by the trial court’s denial of discovery.

A-4

{U 8} Maxwell’s first assignment of error is overruled.
1

II. Findings of Fact and Conclusions of Law
{U 9} Maxwell petitioned for postconviction relief and requested discovery

in Au ?ust 2008. The court denied Maxwell’s request to conduct discovery. The

state opposed his petition and submitted proposed findings of fact and conclusions
of law in October and November 12008, respectively.

Maxwell filed his reply

petition and requested that the court draft its own findings of fact and conclusions

of law rather than adopting the state’s submission. In September 2016, the trial
court summarily denied Maxwell’s petition for postconviction relief. The trial

,

1.

court also denied Maxwell’s subsequent request for the trial court to issue findings
of fact and conclusions of law.

1

l,

10} The state then requested permission to submit proposed findings of

fact and conclusions of law. Maxwell opposed the state’s request, contending that

the trial court was required to issue its own findings of fact and conclusions of law.
The trial court granted the state’s request and overruled Maxwell’s objections. On
October 31, 2016, the state filed its second set of proposed findings of fact and

conclusions of law, which included citing to the Supreme Court’s opinion

addressing Maxwell’s direct appeal. | Approximately a year later, in 2017, Maxwell

objected to the state’s second submission contending that the trial court is
obliga :ed to issue its own findings of fact and conclusions of law; Maxwell did not

submi his own proposed findings of fact or conclusions of law. A year later, on

A-5

August 31, 2018, the trial court adopted the state’s 2016 proposed findings of fact
and conclusions of law.

;

{H 11} Maxwell contends in his second assignment of error that the trial
I

court violated his due process rights when it failed to provide him with the court’s

own findings of fact and conclusions of law. Specifically, he contends that the trial
court improperly delegated to the S'tate the court’s deliberative process mandated

by R.C. 2953.21(C) by adopting the state’s findings of fact and conclusions of law
verbatim after it summarily denied Maxwell’s petition.
{U 12} When a trial court denies a postconviction relief petition, R.C.

2953-21(G) requires the trial court to make and file findings of fact and conclusions
i
of law setting forth its findings on each issue presented and a substantive basis for
its disposition of each claim for relief advanced in the petition. See, e.g., State v.

Lester, 41 Ohio St.2d 51,322 N.E.2d 656 (1975). The purpose of requiring findings
l
,
1
of fact and conclusions of law is to apprise the petitioner of the basis for the court’s
1

. disposition and to facilitate meaningful appellate review. See, e.g., State ex rel.
Carrion v. Harris, 40 Ohio St.sd 19, 530 N.E.2d 1330 (1988).
I .

{U13} When a party’s proposed findings of fact and conclusions of law are
i ■

accurate in law and in fact, nothing prohibits a trial court from adopting that

party’s proposed findings of fact and conclusions of law in a postconviction

proceeding. State v. Williams, Sth ,Dist. Cuyahoga No. 85180, 2OO5-Ohio~3O23,
1 35, citing State v. Combs, 100 Ohio App.sd 90, 652 N.E.2d 205 (1st Dist.1994).
i
'

‘Tn the absence of demonstrated prejudice, it is not erroneous for the trial court to

A-6

I
adopt, in verbatim form, findings of fact and conclusions of law which are
submitted by the state.” State v. Thomas, Sth Dist. Cuyahoga No. 87666, 2006Ohio- 6588, If 15, citing State v. Powell, 90 Ohio App.sd 260, 263, 629 N.E.2d 13
1

i '
i

(1st Dist. 1993). Moreover, a trial court may adopt verbatim a party’s proposed

I

1

findings of fact and conclusions of law as its own if it has thoroughly read the
document to ensure that it is completely accurate in fact and law. State v. Jester,

Sth Dist. Cuyahoga No. 83520, 2OO.4-Ohio-36ii, 116; see also Thomas at id.
{If 14} Maxwell does not discount that trial court can delegate the writing

responsibility to the parties but contends that the trial court cannot delegate its

deliberative process. In support, h'e cites to State v. Roberts, 110 Ohio St.3d 71,
2OO6-jOhio-366s, 850 N.E.2d 1168; and State v. Pickens, 1st Dist. Hamilton No.

1I
:
C130004, 2O16-Ohio~5257.

'

1

{If 15} In Roberts, the Supreme Court vacated the defendant’s death

sentence and remanded for resentencing, because its “confidence in the trial
court’s sentencing opinion [had been] undermined by the fact that the trial judge
directly involved the prosecutor in preparing the sentencing opinion and did so on
i ■
an ex parte basis.” Roberts at If 159. The court concluded that the trial court had

failed to follow the “proper process,” because the “delegation of any degree of

responsibility in [its] sentencing opinion does not comply with [the mandate of]

R.C. 2929.03(F)” that “the trial couift itself will draft the death-sentence opinion,”
and does not comport with the court’s “firm belief that the consideration and

imposition of death are the most solemn of all the duties that are imposed on a

A-7

judge.” Id. at U 160. It determined that because of the ex parte communication,
the trial court’s “grievous violation of the statutory deliberative process” was not
harmless error nor could it be corrected on appeal. Id. at 1162-163.
{U 16} In Pickens, the First'District applied Roberts to an appeal from a

postcpnviction proceeding.1 It distinguished between the duty imposed under the
I
death-penalty statutes and those under postconviction proceedings, finding that
although a court may not delegate the drafting responsibility under R.C. 2929.03(F),

it may do so under R.C. 2953.31(C), but that “the deliberative process may not be
1
delegated.” Pickens at 119. The Pickens court found that the record must show that

t trial court engaged in the deliberative process based on its “consideration of the

I
I

'

*

petition, supporting affidavits, documentary evidence, and the files and records of

!

the proceedings leading to the petitioner’s conviction, to determine whether ‘there

1'

I

are substantive grounds for relief.’” Id. at 119. The Pickens court also relied on
Roberts in finding that a defendant is denied due process when the court engages in

-

1

ex parte communication with the state, and the court’s findings of fact and

1

conclusions of law are a product of that ex parte communication. Id. at 122. When

this occurs, the trial court’s deliberative process has been delegated and a
defendant’s due process rights have been violated. Id.i

i1 However, in State v. Jackson, lith Dist. Trumbull No. 2008-T-0024, 2010-Ohio1270, and State v. Ahmed, 7th Dist. Belmont No. 05-BE-15, 2006-0IU0-7069, those
districts found that the holding in Roberts does not apply to postconviction proceedings.
Nevertheless, these courts addressed Roberts in the context of ex parte communication
and found that if the findings of fact and conclusions of law filed by the court are a result
of ex parte communication, a defendant is denied due process.

I

A-8

{U 17} Notwithstanding the procedural distinction in Roberts, both Roberts
and Pickens involved the trialcourt’s engagement in ex parte communications with

the state in rendering its judicial opinions. That did not occur in this case, and
I
i

there is no evidence that Maxwell was denied due process of law. Roberts and
Pickens are distinguishable. Accordingly, when the state’s submission of proposed

i
findings of fact and conclusions of law are not based on ex parte communications,
but as a result of an order by the court allowing the parties to each submit their

i1

own proposed findings of fact and conclusions of law, no due process violation
occurs.

1I

{U 18} Maxwell argues that he was not given an opportunity to participate in

submitting proposed findings; of fact and conclusions of law. We disagree. Much

like when the state filed its own proposed findings in 2008, which was prior to the
trial court issuing its summary decision to deny Maxwell’s petition, Maxwell could

. have submitted his own proposed findings of fact and conclusions of law for the
court :o consider. Instead, he merely objected to the state’s proposal and asked the

court 1:0 issue its own findings. Thej trial court did not summarily deny Maxwell’s
I

petition until 2016. Accordingly, Maxwell had approximately eight years to file his
own submission for the trial court to review, yet he failed to set forth the findings
and conclusions he wanted the trial court to make in deciding whether to grant or

deny nis petition. Maxwell had the opportunity; he chose not to participate.

{U 19} Finally, the fact that the trial court ultimately adopted the state’s
second proposed findings of fact and conclusions of law did not deny Maxwell due

A-9

■

i ■

process. The trial- court’s 2016 summary denial was not final or appealable; thus,
I

the trial court could have changed its decision.

Additionally, considering the

amount of time that had passed, as well as the Supreme Court’s issuance of its
I

' '

decision regarding Maxwell’s direct appeal, it was not unreasonable for the state
to resubmit proposed findings.
{U 20} Upon reviewing the state’s proposed findings of fact and
1 ■
conclusions of law, we find that they were sufficiently accurate and afforded
I
Maxwell the right to meaningful appellate review. Moreover, we find no evidence

that the trial court failed to review and consider Maxwell’s petition in its entirety.
Admittedly, the trial court’s adopted findings of fact and conclusions of law contain
the same typographical errors and omissions that are in the state’s proposal,
i
I

I

'

However, this does not establish that the trial court failed to review the findings or
i
I

conclusions before adopting them verbatim. Finally, Maxwell does not allege or
1

explain how he was prejudiced by the trial court’s verbatim adoption of the state’s

proposed findings and conclusions.1 Accordingly, the trial court did not violate his
!

due process rights.

{U 21} Maxwell’s second assignment of error is overruled.

III. Petition for Postconviction Relief
{U 22} Maxwell contends in his fourth assignment of error that the trial

court erred in dismissing his petition for postconviction relief when he presented

sufficient operative facts to merit relief, or at a minimum, an evidentiary hearing.
Relative to the relief requested in grounds 1, 2, 3, and 6 of his petition, Maxwell

A-10

further contends in his third assignment of error that the trial court erred by
|
I'
applying the doctrine of res judicata to bar his claims for relief. These assignments

of error will be addressed together. I
{H 23} A petition for postconviction relief is a collateral civil attack on a

criminal judgment, not an appeal of the judgment.
Cuyahoga No. 105000, 2O17-Ohio-7168, U 10.
I
i

State v. Bell, 8th Dist.

Postconviction relief is not a

constitutional right; it is a narrow remedy that gives the petitioner no more rights
than those granted by statute. State v. Calhoun, 86 Ohio St.sd 279,281,714 N.E.2d
I
905 (1999). It is a means to resolve constitutional claims that cannot be addressed

on direct appeal because the evidence supporting the claims is outside the record.
State v. Milanovich, 42 Ohio St.2d 46, 325 N.E.2d 540 (1975). To prevail on a
i
;

petition for postconviction relief, the petitioner must establish a violation of his
constitutional rights that renders the judgment of conviction void or voidable. R.C.

2953-21.
{U 24} In a petition for postconviction relief, the petitioner must state all
;
i '

the grounds for relief on which he relies, and waives all other grounds not
identified.

R.C. 2953.21(A)(4). Alcriminal defendant seeking to challenge his

conviction through a petition for postconviction relief is not automatically entitled
!'
to an evidentiary hearing. Calhoun at 282, citing State v. Cole, 2 Ohio St.3d 112,
443 N.E.2d 169 (1982). Before granting an evidentiary hearing on the petition, the

trial court must determine whether there are substantive grounds for relief, i.e.,
i

whether there are grounds to believe there was such a denial or infringement of the

A-11

I

1

1 ■

rights of the petitioner so as to render the judgment void or voidable under the
I 1

United States or Ohio Constitutions. Calhoun at 283. In determining whether
1

there are substantive grounds for Relief, the court must consider the petition, the

supporting affidavits, and the documentary evidence, as well as all the files and
records pertaining to the proceedings. R.C. 2953.21(D).
{U 25} A trial court’s decision granting or denying a postconviction petition
i

filed pursuant to R.C. 2953.21 should be upheld absent an abuse of discretion,
i
State v. Gondor, 112 Ohio St.3d 377, 2OO6-OIUO-6679, 860 N.E.2d 77, U 58. The

trial court does not abuse its discretion in dismissing a petition without a hearing

if (1) the petitioner fails to set forth sufficient operative facts to establish

substantive grounds for relief, or (2) the operation of res judicata prohibits the
claims made in the petition. State v. Abdussatar, 8th Dist. Cuyahoga No. 92439,
'

2009- Ohio-5232,115.

i ■

i ’

26} With respect to the trial court’s conclusion that several of Maxwell’s

claims were barred by the doctrine1 of res judicata, a petition for postconviction

I
I
relief is not the proper avenue to! raise issues that were or could have been
1
determined on direct appeal. See generally State v. Perry, 10 Ohio St.2d 175, 226
N.E.2d 104 (1967).

Ordinarily, when a petitioner introduces evidence in his
i

postconviction petition that is outside of the record, the evidence is sufficient, if
not to mandate a hearing, to at least avoid dismissal on the basis of res judicata.
i

Cole, 2 Ohio St.3d at 114, 443 N.E.2d 169. The evidence submitted in support of
1

the petition “‘must meet some threshold standard of cogency; otherwise it would
1

A-12
1 :

be too easy to defeat the holding of Perry by simply attaching as exhibits evidence
I
,
i
I
:
[that] is only marginally significant and does not advance the petitioner’s claim
beyond mere hypothesis and a desire for further discovery.’” State v. Lawson, 103

Ohio App.sd 307,315,659 N.E.2d 362 (12th Dist.1995), quoting State v. Coleman,

i■
1st Dist. Hamilton No. C-900811,1993 Ohio App. LEXIS 1485, 21 (Mar. 17,1993).

The evidence submitted with the petition must be competent, relevant, and material,
and not merely cumulative of or alternative to evidence presented at trial. State v.

I

Jackson, Sth Dist. Cuyahoga No. 104132, 2017-0^0-2651,116, citing Combs, 100

Ohio App.sd 90, 652 N.E.2d 205.

|

{U 27} Simply, to overcome the res judicata bar, evidence offered outside of

i

the record must demonstrate that the petitioner could not have appealed the
constitutional claim based upon information in the original record. Lawson at id.
{U 28} Additionally, if the submitted evidence outside the record consists of
1

I
I

affidavits, the trial court should consider all the relevant factors when assessing

the credibility of affidavits. These factors include whether (1) the judge reviewing
the postconviction petition is the same judge who presided over the trial; (2) the
I

affidavits submitted contain identical language or appear to have been drafted by

the same person, (3) the affidavits)contain or rely on hearsay, (4) whether the
affiants are relatives of the petitioner or interested in the petitioner’s success, and
I

(5) the affidavits contradict evidence proffered by the defense or are inconsistent

with or contradicted by the affiant’s trial testimony. Calhoun, 86 Ohio St.3d at

A-13

{U 29} With these principles and standards in mind, we now address

Maxwell’s grounds for relief together and out of order where appropriate.
A. N eurological Evaluation and Brain Dysfunction Evidence
{U 30} Grounds 1, 2, and 3 pf Maxwell’s petition for postconviction relief

focus on the lack of evidence obtained and presented during both phases of his
capita;! trial regarding Maxwell’s purported organic brain dysfunction.

Procedural History and Facts
I

{5 31} On January 19, 2007, trial counsel requested the trial court to allow

Dr. John Fabian to perform a neurological evaluation of Maxwell and to allow expert

fees. The request was based on information obtained during evaluations by Dr.
I
I
Michael Aronoff at the court psychiatric clinic and by Dr. Alice Cook at Northcoast
1

!

:

Behavioral Healthcare System that revealed that Maxwell was rendered
unconscious during a 1999 motorcycle accident.

Based on his independent

psychiatric evaluation, Dr. Fabian preliminarily concluded that Maxwell suffered

from mental health issues and recommended that neurological testing be performed
to ascertain Maxwell’s condition.

{U 32} Following the February 2007, competency hearing, the trial court

denied the request for a neurological evaluation based, in part, upon the competency
reports offered by Drs. Aronoff and Cook. As explained by the Ohio Supreme Court
in discussing the issue of whether the court should have appointed a neurologist,

Trial counsel then stated that they were requesting a neurological
evaluation because Maxwell had told them that his life and the way he
ooks at things were different! since that motorcycle accident. Thus,

A-14

counsel requested a neurological evaluation to provide “objective
medical findings in terms of an MRI or a CAT scan as per Dr. Fabian’s
recommendation.”
During the competency hearing, Dr. Cook testified that she had talked
to Maxwell about the motorcycle accident, and he told her that he had
received no treatment and had not been hospitalized as a result of the
accident.

Dr. Aronoff testified that he had reviewed Maxwell’s medical records
that showed he was treated at Meridia-Huron Hospital on March 29,
1999, after the motorcycle accident. Dr. Aronoff quoted findings from
the medical records that reported that Maxwell was “sitting on
motorcycle which was struck from behind by a car at low speed. He
was thrown off the bike on toithe right side. No loss of consciousness.
Was wearing a helmet. Right shoulder, right hip, right elbow, right
ankle are painful. No headache or neck pain.” Dr. Aronoff also stated
that x-rays were taken of Maxwell’s shoulder, elbow, ankle, and hip,
and they were all unremarkable. However, Dr. Aronoff testified that
Maxwell told him that he was; rendered unconscious in the motorcycle
accident.

Maxwell at U 216-218.
{U 33} In finding no abuse! of discretion in denying the request for a
neuro ogical evaluation, the Supreme Court explained

Maxwell’s medical records Showed that he suffered no loss of
consciousness and reported no headache or neck pain as a result of that
motorcycle accident. Thus, I Maxwell’s request merely raised the
possibility that he had suffered a brain injury as a result of a motorcycle
[accident. It was not supported by anything in his medical records.
Moreover, the medical records contradicted Maxwell’s story about
jwhat happened after the accident. Maxwell told Dr. Aronoff that he
jwas rendered unconscious, and he told Dr. Cook that he received no
medical treatment.
i

Id. at U 225.

i
'H 34} The Supreme Court concluded further that trial counsel were not
ineffective for failing to request a neurologist to assist in the development of

I

A-15

mitigation.2 Maxwell at H 229. The court began its discussion by reviewing “Dr.
I

[Sandra] McPherson’s testimony to [determine whether she provided counsel with
i

additional information about Maxwell’s head injuries from the motorcycle accident
that required counsel to conduct a further investigation.” Id. at H 230.

Dr. McPherson administered the Bender-Gestalt test during her
evaluation of Maxwell. She described the Bender-Gestalt as a “copying
task” that serves as a low-level screening test. She testified that there
was “some indication [that] his hand might not have been steady, but
there were distortions that didn’t make a lot of sense, so the question
I remained as to whether or not there was some kind of organically based

anomaly, something that affects how his brain processes information.”
Dr. McPherson testified about past injuries that Maxwell reported
suffering. Maxwell stated that he had been briefly unconscious after
ifalling off a horse but that he did not receive any medical treatment for
that incident. Dr. McPherson also discussed the motorcycle accident
and said, “[H]e may have been briefly unconscious. He was certainly
conscious when he was seen at the hospital for that one.” Dr.
McPherson also stated that there was nothing in Maxwell’s medical
records showing that he had Suffered a traumatic head injury in the
motorcycle accident.
[
;
In discussing her final diagnosis, Dr. McPherson stated that Maxwell
‘suffered from an adjustment disorder with depression and probable
alcohol dependency. Dr. McPherson testified that she could not
'determine whether Maxwell had had a traumatic brain injury and
advised that “whoever is working with him next should continue to be
aware that this may be there and try to come up with information to
either rule it in or out.” She also testified that Maxwell has “some type
of cognitive difficulty. He mayhave some underlying organic problems
and these may have rendered him more likely to react with irritability
since that’s one of the known things that can occur with certain kinds
of organicity making him more prone to act out in a stressful situation
such as a relationship that was flawed.”

? The term “trial counsel” is to be read plurally because Maxwell was represented
by two capitally certified trial attorneys pursuant to former Sup.R. 20(II)(A) and (B).

A-16

Maxwell at U 231-233.

{U 35} The Supreme Court determined that Dr. McPherson’s testing results

raised
“only the
possibility of brain impairment,1 ” which
the court found was
“- ---------- J
--£----------- J :-----------~---- -------- ------- ---j----

---- £---------------

I ■

insufficient to find error that ,his defense team was ineffective for failing to further
1

investigate that Maxwell may suffer (from a brain dysfunction.

Dr. McPherson’s testimony about the need for further testing to rule
I out possible brain impairment appears to be based upon Maxwell’s
: performance on the Bender-Gestalt test. She testified that the Benderj Gestalt test indicated some distortions, but she did not indicate that
these results were conclusive| as to brain damage. Thus, the BenderGestalt results raised only the possibility of brain impairment.
'

i

Maxwell fails to establish that counsel were deficient by failing to
request a neurologist for I mitigation purposes based on Dr.
McPherson’s testimony. First, the record does not show that trial
counsel failed to investigate the need to request a neurologist after
[reviewing Dr. McPherson’s findings. We cannot infer a defense failure
to investigate from a silent record; the burden of demonstrating
ineffective assistance is bn Maxwell. See [State v.] Were, 118 Ohio St.3d
448, 2Oo8-Ohio-2762, 890 N,E.2d 263, at 1244.
Second, the trial court could have properly denied a motion for a
neurologist because Maxwell would have been unable to make a
particularized showing of a reasonable probability that the requested
expert would aid in his defense. [State v.] Mason, 82 Ohio St.sd 144,
1998-OIUO-37O, 694 N.E.2d ^32, syllabus. Dr. McPherson reiterated
that Maxwell’s medical records did not show that he had suffered a
[traumatic head injury during the motorcycle accident. Indeed, Dr.
McPherson’s information about a possible head injury resulted from
Maxwell's self-reporting.
|

'

I

Finally, Maxwell has failed to show that the absence of a neurological
evaluation resulted in an unfair trial. Id. Dr. McPherson testified that
there might be “some underlying organic problems and these may have
rendered him more likely to react with irritability * * * in a stressful
situation.” (Emphasis added!) The evidence showed that Maxwell
murdered Nichole in retaliation for her testimony. Accordingly, this
was a planned murder rather than a sudden encounter inyolving a
stressful situation. Thus, we reject this ineffectiveness claim.

A-17

Maxwell at T 234-237.

{U 36} In his first ground for relief, Maxwell contends that the trial court

violated his right to due process,; as guaranteed by the Fifth and Fourteenth

Amendments to the United States Constitution and Section 16, Article I of the Ohio
i
Constitution, by not granting sufficient funds for a neurological evaluation at the
I
time of trial. In his second arid third grounds for relief, Maxwell contends that he

was denied effective assistance of cotinsel as guaranteed by the Sixth and Fourteenth

Amendments of the United States Constitution, and Article I, Section 10, of Ohio
Constitution because trial counsel failed to investigate and present evidence of
Maxwell’s organic brain dysfunction during the guilt phase of trial, and failed to

I

■

1

present evidence regarding the same during the mitigation phase of trial.
I
{U 37} He maintains that these denials were prejudicial because the jury was
unable to consider his traumatic brain injury, which allegedly caused his personality
to change resulting in criminal behavior. According to Maxwell, it was important

for the jury to consider evidence of his organic brain dysfunction in consideration of

the R. C. 2903.01(A) murder specifications, and as a relevant R.C. 2929.04 factor

during mitigation.

|

{U 38} Maxwell supports these grounds for relief with (1) his defense
counsel’s January 19, 2007, request for a neurological evaluation; (2) a

:
I '
postconviction affidavit from his cotisin, Rodney Maxwell, who averred that in the
mid-1980s, Maxwell hit his head bn a concrete bumper and sought medical

treatment for his injuries and suffered headaches thereafter; (3) an affidavit from

A-18

Dr. Barry Layton, a board certified clinical neuropsychologist, who stated he

evaluated Maxwell following his conviction and opined to a reasonable degree of
psychological certainty that Maxwell suffers from significant brain impairment; (4)
a single-page facsimile cover page from Howard Memorial Hospital in Arkansas
I

stating that Maxwell was a patient there for two days in August 1986; a (5) a

postconviction affidavit from Dr. McPherson, Maxwell’s mitigation expert at trial,
averring Rodney’s affidavit would have confirmed her impression that Maxwell
1I
1111
1
suffered from brain impairment, which would imply potential defects in judgment;
(6) Dr. McPherson’s February 2007 report prepared for mitigation; and (7) an

affidavit from a juror who averred that additional information about Maxwell’s brain
injury “may have made a difference”; at trial.

Neurological Evaluation
{U 39} The trial court determined that Maxwell’s first ground for relief — that

the trial court abused its discretion in denying his request for a neurological
i '
1
evaluation — was considered and rejected by the Ohio Supreme Court in his direct

appeal and thus, barred by res judicata. Notwithstanding this finding, the trial court
also determined that the evidence Maxwell presented outside of the record was “only
i

marginally significant,” and that his (cousin’s account of Maxwell striking his head
in the 1980s was available at the time of trial. The trial court also concluded that Dr.

Layton’s reliance on Rodney Maxwell’s account failed to credibly prove that Maxwell
suffered from the effects of an organic brain injury.

The trial court further

I
I

discounted Dr. Layton’s opinion based on prior cases where this court determined

A-19

I

that Dr. Layton’s opinions regarding organic brain injuries on behalf of litigants in

criminal and civil cases were “unconvincing.” Further, the trial court noted two

other experts who opined that Maxwell was competent to stand trial and that he may
have been malingering psychiatric symptoms. Finally, to the extent that Maxwell

provided evidence outside the record, the court found the evidence only marginally
significant and that it did not advance his ground for relief.
I
I

{U 40} On appeal, Maxwell Contends that the trial court’s decision that his
ground for relief was barred by res judicata was in error because his petition was

supported by evidence outside of the record. Moreover, he contends that the trial

i

'

court’s finding that Maxwell “failed to submit credible or competent evidence to

show a neurological examination was necessary” is belied by the record, and that it

'

I

was improper for the trial court to summarily reject Dr. Layton’s opinion based on
i
‘

past judicial cases.

i.

!

{U 41} First, we note that Maxwell is misreading the trial court’s decision.

Maxwell’s failure to submit credible or competent evidence was the justification for

1

i

why the trial court denied his 2007 request for a neurological evaluation; it was not

the trial court’s basis for denying postconviction relief.
(II42} Addressing Maxwell’s! first ground for relief, we find that the trial

court did not abuse its discretion in finding that res judicata prohibits relief. In his
direct appeal to the Supreme Court, Maxwell raised as his 12th proposition of law
that die trial court erred by failing to appoint a neurologist to develop mitigation.

As the Supreme Court clarified, “trial counsel did not request the appointment of a

A-20

neurologist for purposes of mitigation”; rather the request was “in the context of his
j '
competency.” Maxwell at H 222. Despite this procedural hurdle, the Ohio Supreme

1.

Court concluded that the medical records contained in the record did not reveal or
i
support that Maxwell had suffered any brain injuries — the neurological request
“merely raised the possibility that he suffered a brain injury” following a 1999
1
motorcycle accident. Id. at 5 227. Because of the lack of evidence, the Ohio Supreme
I
Court concluded that it was hot an abuse of discretion for the trial court to have

denied his request for a neurologist.' Id. at 1228.
{5143} Admittedly, the evidence attached to Maxwell’s petition in support of

his mid-1980s head injury and the report of Dr. Layton were not part of the trial
court record and thus not available on direct appeal. However, Maxwell is
I
attempting to relitigate an issue that! was addressed on direct appeal and essentially
i

is asking this court to conclude that the trial court erred during pretrial proceedings

based on evidence that the trial court did not have the benefit of reviewing when
Maxwell brought the request for an evaluation before the trial court.

{II44} Even considering the merits, we find no abuse of discretion in

rejecting this ground for relief without an evidentiary hearing. Maxwell attached to
his petition affidavits and evidence that purportedly reveal that he had in fact

suffered a brain injury in the past. Maxwell’s cousin averred through affidavit that
I
he witnessed Maxwell hit his head on a concrete barrier in the mid-1980s and that
Maxwell suffered from headaches thereafter. Dr. Layton opined in his affidavit that

“the cause of Maxwell’s brain impairment appears to be a traumatic brain injury that

A-21
I

he suffered in August 1986.” This opinion was based on the cousin’s account of what

i
occurred, Maxwell’s own recollection, and a one-page facsimile cover page from a

hospital in Arkansas that indicates that Maxwell was a patient there from August 6,
1986 until August 7,1986. Although the facsimile cover sheet states that the records
from Maxwell’s August 1986 hospital visit were destroyed, Dr. Layton relies

extensively on the facsimile to support his conclusion that Maxwell must have been

I
treated at the hospital for a head injury.
I{H 45} We note that this mid-1980s parking lot altercation occurred prior to

!
II
the 15 99 motorcycle accident, which was the incident prompting trial counsel to
request a neurological evaluation. During his examinations with Drs. Aronoff and

Cook, Maxwell did not indicate that he suffered from a head injury in the mid-1980s,
I
:
; ■
although he reported it to Dr; McPherson. Additionally, if, as Dr. Layton opined,
this parking lot incident caused Maxwell to suffer a traumatic brain injury that
caused severe changes in Maxwell’s day-to-day functioning, including legal

i
problems, the brain injury would have been discernible to both Drs. Aronoff and

Cook in their evaluations, and would have bolstered Dr. Fabian’s request for a

neurological evaluation. However, the focus of the neurological evaluation request
I
was based on the 1999 motorcycle accident.

{U 46} Dr. McPherson’s report noted past injuries suffered by Maxwell,

including falling off a horse, the parking lot altercation, and the motorcycle accident.

Dr. McPherson’s report noted that her testing and evaluation of Maxwell did not

reveal results that “were conclusive of brain damage.” Again, if, as Dr. Layton

A-22

opined, the parking lot altercation caused Maxwell to suffer from a traumatic brain

injury, the injury would have manifested itself in the testing conducted by Dr.

McPherson.

|

{H 47} Maxwell was certainly available to disclose to Drs. Aronoff and Cook
i
that he suffered a head injury prior to the 1999 motorcycle accident because he

disclosed this information to Dr. McPherson before he was even evaluated by Drs.

Aronoff and Cook. Additionally, the Arkansas hospital facsimile cover page is only
marginally significant because it does not disclose the nature of the visit or

treatment sought. And Dr. Layton’s finding that “the hospital record of significance
II
I
with respect to neurological dysfunction is a note from Howard Memorial Hospital

confirming Maxwell’s stay on 8/d/i986-8/7/i986” is entirely speculative and
insufficient to establish substantive grounds for relief. State v. Jackson, 11th Dist.

Trumbull No. 2004-T-0089, 2OO6-Ohio-2651, H 63 (mere speculation is not a basis
for relief under R.C. 2953.21).
{U 48} Moreover, we note that information regarding the 1980s parking lot

altercation was available at the time of trial and on direct appeal because Dr.
McPherson’s report indicates that Maxwell reported he suffered a head injury

following the 1980s parking lot incident that required him to be hospitalized for two

days.

Despite this incident being included in her report, the record does not

demonstrate that trial counsel raised1 this purported injury as a basis for justifying a

neurological evaluation. And because Dr. McPherson’s report was part of the trial
court record, it was also available i on direct appeal to support any argument

A-23
I

regarding trial counsel’s ineffectiveness. The focus at trial and on direct appeal
involved Maxwell’s purported head injury from a 1999 motorcycle accident, not any

injury suffered in the 1980s.
{U 49} Accordingly, the trial court did not abuse its discretion in rejecting

Maxwell’s first ground for relief without an evidentiary hearing.
Brain Dysfunction Evidence — Guilt Phase

{U 50} The trial court determined that Maxwell’s third ground for relief —

trial counsel’s failure to investigate and present evidence of Maxwell’s organic brain

1
1
dysfunction during his guilt phase at trial — was barred by res judicata because the
issue was addressed on direct appeal. Nevertheless, the trial court addressed the

merits of this argument and found that contrary to Maxwell’s claim, trial counsel did
investigate the claim of an organic brain injury when the issue was raised by Dr.
■

1

Fabian in 2007. The trial court found that counsel’s choice to not present evidence

of a possible brain injury to negate prior calculation and design may have been
strategic because Maxwell’s defense' at trial was actual innocence. The trial court
concluded that a defense that Maxwell had diminished capacity due to an organic

brain injury would have necessarily required an admission that Maxwell murdered

Nicho e, which was contrary to their trial theory.
(U 51} On appeal, Maxwell reiterates the arguments he raised in his petition
that trial counsel rendered ineffective assistance during trial. He contends that the
I

trial court abused its discretion in discounting and rejecting Dr. Layton’s opinion as
“specu ative,” and that the trial court! ignored Dr. Layton’s testing and conclusions.

A-24

He contends that Dr. Fabian alerted counsel that Maxwell may suffer from organic
brain damage yet did not investigate those injuries. Additionally, he maintains that

i

i

counsel knew that any evidence of brain impairment may have neutralized any

argument that he malingered his mental health symptoms. In support, he directs
this court to Dr. McPherson’s postconviction affidavit in which she avers that she

advised counsel that if brain dysfunction was present, Maxwell’s behavior during
testing was in accordance with his neurological dysfunctions. Additionally, Maxwell

maintains that if counsel had obtained evidence of his brain dysfunction, the defense

;

i

could have challenged the state’s theory at trial that he acted with prior calculation
and design.
I
I

{U 52} We find that Mapveil’s third ground for relief is barred by res judicata,

but for different reasons than found by the trial court. In his direct appeal, Maxwell

raised as his fourth proposition of law that he received ineffective assistance of
:
'

counsel during the guilt phase of trial. Maxwell at U 74.

Despite raising this

1

proposition of law, Maxwell did not raise any argument about trial counsel’s failure
to investigate or present evidence of any brain dysfunction during the guilt phase of

trial. In his postconviction petition, Maxwell contends that his trial counsel was
ineffective because no further investigation regarding brain dysfunction was
I
conducted, even though Dr. McPherson’s report indicated that he sustained a head

injury in the 1980s that caused him to be hospitalized.
I

As evidenced by the

argument advanced, this issue was available during direct appeal. Accordingly,

A-25

because the issue could have been raised on direct appeal, it is barred by res judicata
in postconviction proceedings.

|

{H 53} And notwithstanding our conclusion that the issue is barred by res

'

i'

judicata, the record reveals that trial counsel attempted to secure a neurologist for
use during trial — this was the basis for Maxwell’s first and twelfth propositions of
i
law in his direct appeal. Maxwell at 1165, 214. Trial counsel cannot be deemed’

ineffective when the trial court denies the request for an evaluation.
{If 54} Moreover, and as the trial court noted, the presentation of evidence
’
i
regarding Maxwell’s brain dysfunction would have been inconsistent with his theory
1

'

I

at trial, which was actual innocence.! See State v. Miller, 1st Dist. Hamilton No. C-

120109, 2Oi2-Ohio-5964,122 (counsel may have had legitimate tactical ground for
not pursuing an insanity defense because it would been inconsistent with his alibi
'
1

i
1 ■

defense presented at trial). Tactical or strategic trial decisions, even if unsuccessful,
do not generally constitute ineffective assistance. State v. Carter, 72 Ohio St.3d 545,

558, 651 N.E.2d 965 (1995). ‘“Rather, the errors complained of must amount to a

I

'

'

substantial violation of counsel’s essential duties to his client.’” State v. Bradley, 42

I

■

!■

Ohio St.sd 136, 141-142, 538 N.E.2d 373 (1989), quoting State v. Lytle, 48 Ohio
St.2d 391,396,358 N.E.2d 623 (1976).
1
{If 55} We can glean from the I record that the strategy employed during trial
was possibly at Maxwell’s behest. For example, during the competency hearing,
1 ■
counsel advised the court that they had been “begging him to come up with some
I

sort of meaningful defense or anything along those lines.” (Tr. 47). Additionally,

A-26

conversations were nonproductive. with Maxwell when discussing options and
I

trying “to come up with some sort of meaningful defense in terms of defending this
crime either from the guilt and/or penalty phase.”

(Tr. at id.)

And during

mitigation, Dr. McPherson reported and testified that Maxwell “is maintaining his
1

i

innocence of the crime.” Finally, as the Ohio Supreme Court noted, “Maxwell has

also refused to accept responsibility for murdering Nichole.” Maxwell at 1 285.
Therefore, the strategy to not set forth evidence of Maxwell’s diminished capacity to

!

I

negate the state’s evidence of premeditation was trial strategy consistent with the

defense of raising reasonable doubt to show that he was actually innocent.
{H 56} Even without applying the principles of res judicata, we find that

1

Maxwell has not set forth sufficient operative facts to establish that counsel’s

performance fell below an objective standard of reasonableness in its investigation
and presentation of evidence during the guilt phase of trial. Accordingly, we find no
abuse of discretion by the trial court in rejecting this ground for relief without an
evidentiary hearing.

|

Brain Dysfunction Evidence — Mitigation Phase
57} The trial court found that Maxwell’s claim in his second ground for

relief regarding counsel’s ineffectiveness in presenting mitigation evidence about

i1

any purported brain dysfunction is barred by res judicata because the Ohio Supreme
Court held that the trial court properly denied Maxwell’s request for a neurological
evaluation, and because the information regarding the mid-1980s parking lot

A-27

I

incident that caused Maxwell to allegedly suffer a “traumatic brain injury” was
available before trial.

'

{51 58} The trial court also considered the merits of Maxwell’s claim and
I

determined that Maxwell’s “mitigation strategy depended on calling his relatives
I
I

and acquaintances to testify as to his general history of good character, that he was
a versatile and dependable worker, an upstanding neighbor, a positive role model,

and a good family member, as well as providing residual doubt” about whether
Maxwell actually committed the offense as charged.

{If 59} On appeal, Maxwell [contends that evidence of an organic brain
dysfunction would have been a significant mitigating factor.

.
1 i
{II60} We find that res judicata bars Maxwell’s second ground for relief
I
because this issue was addressed on direct appeal, and the evidence attached to
|
'
i
Maxwell’s petition is irrelevant and immaterial to warrant relief. The Supreme
I
Court found that counsel was not ineffective for failing to request a neurologist for
mitigating purposes because (1) the record was silent regarding whether counsel

failed to further investigate the need for a neurological evaluation after reviewing

Dr. McPherson’s findings; (2) Maxwell was unable to make a particularized showing
of a reasonable probability that the requested expert would have aided in his
defense; and (3) Maxwell failed to demonstrate that the absence of a neurological
I
evaluation resulted in an unfair trial.! Maxwell at 1235-237.
{H 61} Maxwell attempts to remedy these deficiencies with the affidavits of

his cousin and Dr. Layton.
i

However, as previously discussed, the parking lot

A-28

incident was known at the time of trial because it is referenced in Dr. McPherson’s
report. Despite this notation, Dr. McPherson did not rely on it when evaluating any
I

'

'

i

i ■

potential brain dysfunction.
{U 62} Additionally, Maxwell could have reported this 1980s parking lot

incident to Drs. Aronoff, Cook, arid Fabian.

The focus of the request for a

I

neurological evaluation was based on a motorcycle accident that occurred in 1999.

As previously discussed, any organic brain dysfunction would have manifested or
become apparent during Maxwell’s evaluations with the other medical experts,
i <

{U 63} Finally, Dr. Layton’s opinion is based partly on speculation — i.e., the
;
1

destroyed medical records from the Arkansas hospital. Maxwell again places much
emphasis on the fact that Dr. Layton was able to determine that Maxwell suffered
' '

I

from an organic brain dysfunction based solely on his examination of Maxwell —
!

1

“the examination alone definitively demonstrates brain impairment, particularly in
the anterior of the brain (the frontal cerebrum).”

However, the record clearly

demonstrates that at least four other physicians interviewed and evaluated Maxwell,

and none were able to definitively diagnosed Maxwell with an organic brain
dysfunction. Accordingly, we cannot say that trial counsel was ineffective for not

further investigating and presenting mitigating evidence regarding brain

dysfunction based on the evidence available to counsel at the time of trial.
i .
{U 64} Notwithstanding our conclusion, we note that this is not a case where

no evidence of Maxwell’s psychological or mental status was presented during
mitigation. Dr. McPherson testified as a defense mitigation witness about Maxwell’s

A-29

mental status, including test results that showed his low intelligence, and possible

neurological problems.

In fact, slje testified “that Maxwell has come cognitive

difficulty. He may have some underlying organic problems, and these may have
i

rendered him more likely to react with irritability in a stressful situation such as a
flawed relationship.” Maxwell at U 273. Dr. McPherson further testified about

Maxwell’s background and his drug 'and alcohol problems, opining that he suffered
from alcohol abuse and probably dependency. Finally, she testified about Maxwell’s
prison records that showed compliance with authority and that he had the skills to
' '

'

i

adjust to prison life and was thus amenable to a life sentence.
1.
{U 65} The presentation of mitigating evidence is a matter of trial strategy.
I
State v. Lang, 129 Ohio 81.3d 512, 2Oii-Ohio-42i5, 954 N.E.2d 596, U 74. Nothing

:■

i

in the (record indicates that counsel failed to investigate any further indication of an

i
organic brain dysfunction. Furthermore, the mitigation evidence presented was a

matter of strategy to maintain consistency with the evidence and the defense theory
presented during the guilt phase of trial.

:

i

{U 66} Much like the Ohio Supreme Court found in his direct appeal when

addressing lack of mitigation, we also find that Maxwell has failed to show prejudice

II

1

!1

or that there was a reasonable likelihood of a different outcome had defense counsel
presented additional evidence that. Maxwell may suffer from an organic brain

dysfunction. Maxwell attempts to establish prejudice by providing an affidavit from
I
I

a trial juror that information of a brain injury “may have made a difference” during
mitigation. The affidavit is purely based on speculation, which is insufficient to
i

A-30
1

I
I

grant relief under R.C. 2953.21. See Jackson, nth Dist. Trumbull No. 2004-T-0089,
1

I 1
I

2OO6 OIUO-2651, H 63. Moreover, because Evid.R. 606(B) would prohibit Maxwell
I

from using the juror’s statement toj impeach a verdict, the juror’s testimony at an
evidentiary hearing would have been inadmissible. See State v. Jones, 9th Dist.

Summit No. 28063, 2Oi9-Ohio-289, 1 76, citing State v. Morgan, 10th Dist.
Franklin No. 95APA03-382, 1995, Ohio App. LEXIS 5130, 3 (Nov. 21, 1995)

I

'

'

(concluding that although it was necessary for appellant to submit affidavits in order
for the trial court to determine whether he was entitled to a hearing, once the trial

court granted that hearing, it became necessary for him to produce admissible
evidence under the rules of evidence). Accordingly, Maxwell has failed to cure the

prejuc icial impediment for this court to find that he was deprived his constitutional

right to effective assistance of counsel.
I

{U 67} Even without applying the principles of res judicata, we find that
Maxwell has not set forth sufficient operative facts to establish that counsel’s
,

I ,

performance fell below an objectively reasonable standard in its presentation of
evidence during the mitigation phase of trial. Accordingly, we find no abuse of
discretion by the trial court in rejecting this ground for relief without an evidentiary
hearing.
B. Actual Innocence

:

I

{U 68} The state claimed that Maxwell killed Nichole in retaliation for her
!

1

1

grand jury testimony that led to hisj subsequent indictment for felonious assault.
The alleged felonious assault occurred on October 6, 2005. Nichole testified before

A-31

the grand jury on November 23, 2005, regarding the assault, and the grand jury
;
I
indicted Maxwell for felonious assault, abduction, and domestic violence. Due to
the Thanksgiving holiday weekend, the indictment was not filed until November 28,

However, Maxwell killed Nichole during the early morning hours of

2005.

November 27, 2005.

Maxwell was indicted for Nichole’s murder with a prior

calculation and design specification; The aggravated murder count contained four
I

death specifications; however, the jury only found Maxwell guilty of murder in
retaliation for testimony in a criminal proceeding (R.C. 2929.04(A)(8), and murder

to escape accounting for a crime (R.C. 2929.04(A)(3)). For sentencing purposes and
1
after merger, Maxwell was sentenced to death under the R.C. 2929.04(A)(8)
j

specification — i.e., retaliation.

•,

{U 69} In his sixth ground for relief, Maxwell contends that his conviction

and sentence are void or voidable because he is actually innocent of the aggravating
circumstances. Specifically, he contends that because the state never proved that he
was guilty of felonious assault, he could not be found guilty of committing

aggravated murder in retaliation or fo escape punishment for felonious assault.3

{U 70} In support of this ground for relief, Maxwell attached to his petition
affidavits from (1) his brother, Andy {Maxwell; (2) Andy’s friend, La-Tonya Kindell;

3 The death specification under R.C. 2929.04(A)(3) merged into the retaliation
death specification under R.C. 2929.04(A)(8); accordingly, only the death specification
under R.C. 2929.04(A)(8) survives andiis subject to review. See Maxwell at U 73 and 256
(finding that trial court merged the R.C|. 2929.04(A)(3) specification with the murder-inretaliation specification in R.C. 2929.04(A)(8) before the jury considered its penalty­
phase verdict; analyzing death specification only under R.C. 2929.04(A)(8)).

A-32

(3) his mother, Earnestine Brewer; (4) his sister, Teresa McNear; (5) his long-time
friend, Terrell Tyson; (6) an investigator, Felicia Crawford; and (6) a trial juror; as
1
well as hospital records dated August 14, 2001, where he was treated for abrasions
I

to his face and penis as a result of ‘‘domestic assault.” Maxwell contends that the

testimony from these witnesses would have established that he had a legitimate self­

defense claim against the allegations of felonious assault and therefore he had no
•

I

■

reason to retaliate against Nichole. And according to Maxwell, had the jury heard
this evidence, the result may have been different.
{U 71} The trial court concluded that Maxwell’s ground for relief was barred
I

I

•

by res judicata because the evidence he advanced was available at the time of trial.
Moreover, the trial court found the evidence presented outside the record was only

marginally significant and did not advance his claim because it did not prove his

actual innocence, the assertion of a self-defense claim would have been contrary to

his innocence claim at trial, arid the evidence actually presented at trial proved that
Maxwell did in fact, commit the act Of felonious assault against Nichole.

{U 72} Maxwell raised a similar issue in his direct appeal as propositions of
law 8 and 9.

Upon its review, tlie Supreme Court determined that the state

presented sufficient evidence to | prove the R.C. 2929.04(A)(8) retaliation

specification that Maxwell killed Nichole to prevent her testimony in any criminal
:
i
proceeding and for testifying against him at the grand jury proceedings. Maxwell at
U158 and 163. In fact, the Supreme Court stated: “We hold that Maxwell’s guilt of

the R.C. 2929.04(A)(8) specification was established by proof beyond a reasonable

A-33

doubt” Id. at 163. Accordingly, the state did not have to prove the offense of
felonious assault, only that Maxwell killed Nichole for testifying against him.
{U 73} On appeal, Maxwell does not demonstrate, much less argue, how the

trial court abused its discretion in rejecting this ground for relief.

Rather, he

reiterates that during the trial, the court found that the testimony of John Gregg (the

state’s sole witness regarding the capital specification) incredible, and that in his

second motion for new trial, it was discovered that Gregg received immunity for his
I
testimony. According to Maxwell,J Gregg’s lack of credibility and the evidence
“presented in [his] fourth, fifth, eighth, and ninth grounds for relief’ “casts serious
1
i ■
doubt on the State’s case against [him],” and that he did not kill Nichole in

retaliation for testifying against him before the grand jury.

|{il 74} Admittedly, Maxwell presents evidence dehors the record; however,
I
in order to obtain postconviction relief, Maxwell must claim that “there was such a
i
denial or infringement of his right as!to render the judgment void or voidable under

1
the Oliio Constitution or the Constitution of the United States.” R.C. 2953.21(A)(1).
Maxwell’s claimed constitutional violation is that he is serving a death sentence for

a crime he did not commit, which would violate the Cruel and Unusual Punishment
Clause of the Eighth Amendment and the Due Process Clause of the Fourteenth

Amendment to the United States Constitution. A claim of actual innocence is not
;
I
i
itself a constitutional claim, nor does it constitute a substantive ground for
postconviction relief. State v.Apanovitch, 155 Ohio St.sd 358, 2Oi8-Ohio-4744,121

I

N.E.sd 351,1 26, citing Herrera v. Collins, 506 U.S. 390, 404, 113 S.Ct. 853, 122

A-34

L.Ed.2d 203 (1993); see also State v! Williams, Sth Dist. Cuyahoga No. 85180,2005-

Ohio-3023, 1 31. Therefore, Maxwell’s “actual innocence” claim fails to raise “a

denia or infringement of rights under the Ohio Constitution or the Constitution of
the United States” as required by R.C. 2953.21.
{H 75} Accordingly, we find | no abuse of discretion by the trial court in

1
rejecting this ground for relief.

j

C. Effective Assistance of Counsel
i
{U 76} Nine of Maxwell’s postconviction claims sought relief on the grounds
,
I ■
that his trial counsel were constitutionally ineffective in investigating, preparing,
and presenting his case during both the guilt and mitigating phases of trials
I
I
77} To prevail on a claim of ineffective assistance of counsel, a

postconviction petitioner must demonstrate that counsel’s (1) performance fell
below an objective standard of reasonableness, and (2) deficient performance

prejudiced him. Strickland v. Washington, 466 U.S. 668, 694,104 S.Ct. 2052, 80
L.Ed.2d 674 (1984); State v. Bradley, 42 Ohio St.sd 136, 538 N.E.2d 13 (1989).
When reviewing counsel’s performance, this court must be highly deferential and

“must indulge a strong presumption that counsel’s conduct [fell] within the wide
i

range of reasonable professional assistance.”

Strickland at 689.

To establish

j* Maxwell’s second and third grounds for relief, which also claim a deprivation of
effectiye assistance of counsel, were previously discussed and rejected in this opinion;
they will not be addressed again.
!

A-35

resulting prejudice, a defendant must show that the outcome of the proceedings

woulc. have been different but for counsel's deficient performance. Id.

Grounds 4, 5, and 9 — Guilt-Phase Evidence
{H 78} Grounds 4, 5, and 9 each contend that Maxwell’s trial counsel were

ineffective in investigating and presenting his case during the guilt phase of his trial.
1'
Respectively, in his fourth, fifth, and ninth grounds for relief, Maxwell contends that

his sentence is void or voidable because trial counsel failed to (1) investigate the
felonious assault charge that was the premise for the aggravating circumstance, (2)
investigate the actual crime of felonious assault, and such investigation would have

revealed that Maxwell did not act with prior calculation and design; and (3) present
several necessary witnesses in his defense, specifically about Maxwell’s tumultuous

1

relationship with Nichole
1

I

{U 79} Maxwell supports grounds 4, 5, and 9 of his petition with affidavits

from (i) his brother, Andy Maxwell, (2) Andy’s friend La-Tonya Kindell, (3) his sister
Teresa McNear, and (4) his mother, Earnestine Brewer; and hospital records dated

August 2001 when he was treated for injuries caused by his “girlfriend” during a
domestic assault.”

I '
Maxwell maintains the investigation and presentation of

witnesses regarding the felonious assault offense would have provided the jury with

the complete story that the murder of Nichole was not in response to her grand jury
I

testimony, but instead due to their tumultuous relationship and Maxwell’s despair
I

over Nichole’s actions, including observing her with another man. Finally, Maxwell
contends that counsel’s strategy to nlaintain his innocence did not absolve them of

A-36

their duty to investigate the felonious assault charge, and the supporting evidence

presents sufficient operative facts to; establish that his trial counsel were ineffective.
i

{U 80} The trial court found that the affidavits submitted in support of his

petition do not set out sufficient operative facts that the victim was the aggressor
I

i '

'

and provoked Maxwell into committing felonious assault or aggravated murder.
The court determined that if Andy Maxwell or La-Tonya Kindell would have testified

similarly to what is stated in their affidavits, their testimony would have discounted
the defense theory of actual innocence. Additionally, the court found that the
I

I

:

i'

evidence of past altercations between Nichole and Maxwell does not disprove that

he acted with prior calculation; and d'esign, or that Nichole provoked him. The court

found the affidavits marginally significant. Moreover, the court noted that the

Supreme Court rejected Maxwell’s argument that he acted spontaneously in killing
i

Nicho e. Maxwell at 1149-151.

{U 81} In his direct appeal, Maxwell raised as his fourth proposition of law

that he received ineffective assistance of counsel during the guilt phase of trial.
Maxwell at U 74. Despite raising this issue, Maxwell did not raise any challenge

regarding trial counsel’s failure to investigate the felonious assault charge or the
presentation of evidence to refutel that he acted in retaliation or with prior

calculation of design. Accordingly, [because the issue could have been raised on
direct appeal, it is barred by res judicata in postconviction proceedings.

I

'

I

{U 82} Even reviewing the merits of these grounds for relief, we find no abuse

I

I

of discretion by the trial court. The affidavits and medical records Maxwell attached

A-37

to his petition do not set forth sufficient operative facts to demonstrate that trial

counsel was ineffective for failing to investigate the felonious assault offense.
'
I
{U 83} The evidence Maxwell submits purportedly proves that he acted in
self-defense when Nichole suffered the injury that prompted the underlying

felonious assault charge, the two had a tumultuous relationship, and the murder was

a spontaneous crime of passion. However, as the Ohio Supreme Court concluded,
the state did not have to prove that Maxwell committed the act of felonious assault,

only that Nichole was murdered in retaliation for giving grand jury testimony
against Maxwell. Maxwell at 11154-163. Whether Maxwell would have been found
guilty of felonious assault in the subsequent indictment is irrelevant to whether
Maxwell purposely killed Nichole for testifying before the grand jury or failing to
I

change her testimony as he requested.
1

i '
1

•

{T 84} Moreover, in his direct appeal, Maxwell challenged the sufficiency of

the evidence, contending that the state failed to prove (1) that he acted with prior
calculation and design, (2) his guilt oh the witness-murder specification, and (3) that
he killed Nichole to prevent her from testify in any criminal proceeding because the

felonious assault charge was not pending at the time of the murder. See Maxwell at

U 145-164. (Propositions of Law Nol 7, 8, and 9). In making these arguments, he

asserted that the evidence showed that he spontaneously shot Nichole after
I '

i

observing her with another man, and kissing him goodnight, and receiving phone
I

i

calls from the man at home. Maxwell at U149. In rejecting this argument, the Ohio

Supreme Court focused on the evidence that showed that Maxwell shot Nichole in

A-38

retaliation for her failure to change her grand jury testimony about the felonious

assaul it. Maxwell at H150,157.
{U 85} The record demonstrates that, Maxwell’s theme at trial was that he
i
was innocent of the charges. When this theme proved unsuccessful, his theme on

direct appeal was that the murder of Nichole was not out of retaliation and thus, not
based on prior calculation or design, but rather based on a crime of passion after

seeing Nichole with another man. Maxwell now advances a theme of “self-defense”

for the felonious assault charge with evidence that he and Nichole had a tumultuous
i

1
relationship. This new evidence and theory are merely alternative theories to that
i

presented at trial and on direct appeal. ‘“The mere existence of an alternative theory
of defense, however, is insufficient to establish ineffective assistance of counsel.’”
.1 -

State v. Tenace, 6th Dist. Lucas No. L-05-1041, 2OO6-Ohio-1226, I 26, quoting
I

Combs, 100 Ohio App.sd at 103, 652 N.E.2d 205.

{U 86} Accordingly, we find tliat the trial court did not abuse its discretion in

rejecting grounds 4, 5, and 9 of Maxwell’s postconviction petition for relief because
he did not set forth sufficient operative facts to establish that trial counsel’s

performance fell below an objective standard of reasonableness to prove that he was

I

'

i

deprived of effective assistance of counsel during the guilt phase of his capital trial.
Moreover, the issues raised were or could have been raised on direct appeal; thus,

1

res judicata prohibits the claims made in the petition.

A-39

Grounds 7, 8,10, and 11 J- Mitigation Evidence
{U 87} Maxwell raised as grounds for relief 7, 8,10, and 11 the adequacy and

effectiveness of his trial counsel’s investigation, preparation, and presentation of his
case in mitigation. Respectively, in his seventh, eighth, tenth, and eleventh grounds
I
1
for relief, Maxwell contends that liis sentence is void or voidable because trial
1
counsel failed to (1) present adequate mitigation by utilizing Dr. McPherson as both
an investigator and mitigation specialist; (2) investigate and present several
,
1

necessary witnesses to support the R.C. 2929.04(B)(1) and (2) mitigating factors;
I

(3) present evidence that he was a good father; and (4) present adequate evidence

of his work history.

r

I

{T 88} In his seventh ground! for relief, Maxwell contends that trial counsel

utilized Dr. McPherson as both investigator and mitigation specialist. According to
i
Maxwell, this dual-purpose role deprived her from performing both roles

sufficiently and, as result, counsel was unable to provide adequate mitigation.
{U 89} In support of this ground for relief, Maxwell attached to his petition

affidavits from his brother, Andy Maxwell, and his sister, Teresa McNear; and he
i

makes a passing reference to Dr: Layton’s report.

He maintains that Dr.

McPherson’s interview of the family was performed in a group setting, depriving

family members an opportunity to speak comfortably; thus, he contends she was
unable to build rapport with his family to help with mitigation. Additionally, he
:
I
I

contends that her dual roles caused her to present inaccurate information to the jury
during her testimony.

A-40

{H 90} The trial court found that Maxwell’s submitted evidence was only

marginally significant and that the Supreme Court addressed a majority of his

concerns and arguments in his direct appeal. Specifically, the court noted that the

Supreme Court found that Maxwell’s defense team “thoroughly prepared for the
penalty phase,” and that “trial counsel employed a criminal investigator, a clinical
psychologist who was a mitigation specialist, and another psychologist who was a
I
I

mitigation expert.” Maxwell at U 191. Additionally, the Supreme Court rejected
Maxwell’s contention that inadequate mitigation evidence was presented. Id. at H

187-198.
{U 91} On appeal, Maxwell maintains that the trial court abused its discretion

in rejecting this ground for relief because its findings are not supported by the
I
1
record, and the trial court “ignored” all the arguments raised in his petition. Hei
i

1

.

1

contends that Dr. McPherson did not build a rapport with the family “in time to
I
convince Maxwell to take a deal,” and that the group meeting was inadequate to
I
allow the family to “open up.” According to Maxwell, the jury did not receive
I
I

information on his background, character, history, or mental deficiencies.

(11 92} A majority of the trial court’s findings are consistent with the Ohio

Supreme Court’s findings addressing the same arguments. Even granting that the
affidavits and Dr. Layton’s report are 1 outside the record and were not considered on
direct appeal, the information contained therein does not advance Maxwell’s
argument that Dr. McPherson’s purported dual-role deprived him of adequate

mitigation.

Rather, the information Maxwell now advances in his petition

A-41

essentially relates to the tumultuous relationship between him and Nichole — a
theory contrary to his actual innocence claim.
{U 93} Finally, Maxwell’s argument that the jury did not receive information
I
regarding his background, character, history, or mental deficiencies is completely

unsupported by the record. In fact, the Supreme Court expressly found that
Dr. McPherson provided I expert testimony about Maxwell’s
background, his drug and alcohol problems, and his mental status.
Testimony from family members and friends did reveal Maxwell’s
criminal past. But there were advantages as well as disadvantages in
calling these witnesses. These witnesses helped to humanize him in
front of the jury and showed that he had many positive characteristics
'as a good father and a hard worker.

I* * *
11

'■

i

[Tjrial counsel presented the testimony of Maxwell’s family members
and coworkers that Maxwell was kind-hearted, a good worker, and a
family man. Dr. McPherson reviewed Maxwell’s educational records
and discussed test results that showed his low intelligence. She also
reviewed his prison records and explained how they showed that
Maxwell would be a good prisoner if given a life sentence. Dr.
McPherson also explained that Maxwell had suffered from alcohol
'dependency.

Maxwell at U194, 200.

|

(U 94} Without even considering the effect of res judicata on this claim, we
find that Maxwell has failed to demonstrate that the trial court’s decision rejecting
I
his seventh ground for relief was an abuse of discretion.
TH 95} In his eighth ground for relief, Maxwell contends that he was denied

effective assistance of counsel because counsel failed to investigate and present
severaJ necessary witnesses to support the R.C. 2929.04(B)(1) and (2) mitigating
factors; respectively, whether the victim of the offense induced or facilitated the

A-42

murder, and whether it is unlikely that the offense would have been committed but
I
1 under
' duress, coercion, or strong provocation.
for the! fact that the offender was
{T 96} In its sentencing opinion, the trial court specifically found:

In my independent weighing process, I do not agree with the defense’s
icontention that Nichole McCorkle’s behavior on the night of the
murder had anything to do with Mr. Maxwell’s actions. I specifically
find that she did not induce the offense. Further, I find that the
aggravated murder conviction by Mr. Maxwell was not done while the
defendant was acting under duress, coercion, or strong provocation.
Therefore, I find that the mitigatory factors listed in R.C. 2929.04(B)
(1) and (2) do not apply. Additionally, it should be noted that the
defense did not request the court to instruct the jury to consider these
two mitigatory factors.
[
State v. Maxwell, Cuyahoga C.P. No.jO5-CR~4754OO, Opinion of the Court, Findings

of Fact and Conclusions of Law Regarding Imposition of Death Penalty, dated
March 23, 2007.

1 •
{U 97} Notwithstanding that this issue could have been raised on direct
appeaJ , we note that Maxwell’s defense strategy at trial consisted of him maintaining
his innocence. Accordingly, it can only be viewed as strategy that these two factors

were not presented.

It is well established that the presentation of mitigating

evidence is a matter of trial strategy and [t]he decision to forgo the presentation of

i
additional mitigating evidence does not itself constitute ineffective assistance of

counsel.’” State v. Hand, 107 Ohio St.sd 378,2OO6-Ohio-18,840 N.E.2d 151,1240,
CT State v. Keith, 79 Ohio St.sd 514, 536, 684 N.E.2d 47 (1997).
quotin O

The

introduction of evidence mitigating and explaining that it was Nichole who induced
or faci' itated the murder, or that Maxwell was acting under duress or strong

A-43

1
I

provocation when he shot her, would have been inconsistent with the defense’s trial
strategy and theory of the case. Because trial strategy cannot form the basis of an

ineffective assistance claim, the trial court did not abuse its discretion in rejecting
1

i ■

this claim for relief without an evidentiary hearing. See, e.g., State v. Ellison, 2d
Dist. Montgomery No. 25638, 2Oi3-?Ohio-5455, U 30.
{T 98} In his tenth ground for relief, Maxwell contends that his defense team

failed to present evidence that he was a good father, and that had this evidence been

presented, the trial court’s findings and conclusions would have offered the jury
i

mitigating evidence that would have humanized Maxwell and demonstrated what
kind of provider he was to his family.
I

{U 99} Maxwell supported this ground for relief with the affidavits of his

brother, Andy Maxwell, and his mother, Earnestine Brewer. Additionally, he cites
;
i '
to the trial court’s death penalty sentencing opinion’s findings of fact and

1

:

conclusions of law that “the evidence did not demonstrate that he was a regular
provider for his family, including his daughter * * * and [Nichole].”

State v.

Maxwell, Cuyahoga C.P. No. 05-CR-475400, Opinion of the Court, Findings of Fact
I ■
and Conclusions of Law Regarding Imposition of Death Penalty, dated March 23,

2007.
[U100} The trial court acknowledged this ground for relief but did not make

any specific finding. Rather, it quoted from the Ohio Supreme Court’s decision that

i
the “defense thoroughly prepared for the penalty phase.” However, Maxwell does
not contend that this omission per se constitutes error. In fact, he maintains that
I .

A-44

I

“the trial court addressed this claim, but it is difficult to discern what the findings
are.”

Despite this perceived deficiency, Maxwell presents his argument with

supporting evidence that challenges! the trial court’s finding in the sentencing entry.

Accordingly, the lack of specific finding addressing Maxwell’s tenth ground for relief
has not hindered Maxwell from making a reasoned appeal and affording him

meaningful appellate review. State,v. Mapson, 1 Ohio St.sd 217, 219, 438 N.E.2d
Moreover, considering the entire record, this court is not precluded
from understanding the basis for the trial court’s decision on this ground for relief.
!
i
:
State v. Clemmons, 58 Ohio App.3d45, 46, 568 N.E.2d 795 (2d Dist.1989).

i{H 101} As previously discussed in addressing Maxwell’s seventh ground for

relief, l mitigation testimony was presented demonstrating that he was viewed as a

good person who loved and was loved by his family. Moreover, the affidavits
I
'
'
submitted by Maxwell in support qf this ground for relief are cumulative to the
evidence presented during mitigation. Including other family and friends, both his
I
brother and his mother testified during mitigation and presented testimony that
i .
Maxwell was a kindhearted man and according to Andy, “had a great relationship

with C.M.”

Additionally, we note!that Maxwell’s older sister, Sharon Graves,

testified during mitigation that her brother had a loving relationship with his
daughter, and that he was supportive of her own children — a sentiment that his
younger sister, Teresa McNear, shared. Additionally, Teresa testified that Maxwell
I

loved his daughter and had good interactions with her.

A-45
I
I

0102} Based on the entire record, we find that the trial court did not abuse

its discretion in not affording Maxwell postconviction relief under his tenth ground
for relief because the evidence outside the record was cumulative to what was
I

presented during the mitigation phase at trial.
i
i

{U 103} In his eleventh ground for relief, Maxwell contends that his defense
team Lid not provide him with effective assistance during the mitigation phase of

trial because inadequate evidence of his work history was presented.

{U104} The trial court determined that the record demonstrates that counsel
I
presented substantial evidence of Maxwell’s employment, reputation as a hard
i
1
'1
worker, and generous nature. We agree.
I
'
1
{51105} On appeal, Maxwell admits that trial counsel presented testimony
i
that he was a hard worker, but argues that it was insufficient, and that counsel

should have instructed witnesses to elaborate. He contends that the trial court
abused its discretion in failing to “credit any of the information in the affidavits”
>

I

attached to his petition.

{U106} The affidavits submitted by Maxwell in support of this ground for
relief are cumulative to the evidence presented during mitigation. See, e.g., Maxwell

at 1200. The record is replete with evidence of Maxwell’s employment history and
reputation as a generous, hardworking individual. Accordingly, we find that the trial
|

.

i

court did not abuse its discretion in rejecting Maxwell’s eleventh ground for relief

without an evidentiary hearing.

I

A-46

{If107} Accordingly, we find that the trial court did not abuse its discretion
in denying Maxwell’s grounds for relief challenging that he was deprived of his
j
.
i ■
constitutional right to effective assistance of counsel during the mitigation phase of

I
his capital trial.

i

I

D. Constitutionality of Ohio’s Postconviction Procedures

i
{If 108} In his twelfth ground for relief, Maxwell contends that Ohio’s
postconviction procedures do not’ provide an adequate corrective process, in

i

t

I

violation of the constitution. The trial court found, citing to this court’s precedent,
that : Ohio’s
I

postconviction

1

11

procedures

repeatedly have

been

upheld

as

constitutional. See State v. Hutton, Sth Dist. Cuyahoga No. 76348, 2004-OhioI

'

i '

3731, T 26; see also State v. Conway,both Dist. Franklin No. 05AP-550,2006-Ohioi

6219, U 27. We agree with the trial court and find no abuse of discretion in its

decision dismissing this ground for relief without an evidentiary hearing.

E. Conclusion

!

{If109} Based on the foregoing, Maxwell’s fourth assignment of error is

overruled. His postconviction petition, the supporting affidavits, the documentary
evidence, and the entire court record] do not demonstrate that Maxwell has set forth
sufficient operative facts to establish substantive grounds for relief, and therefore,

the trial court did not abuse its discretion in dismissing his petition without further
discovery or an evidentiary hearing. ,
{If 110} Judgment affirmed.

(

; t is ordered that appellee recover from appellant costs herein taxed.

A-47

The court finds there were reasonable grounds for this appeal.

It is ordered that a special mandate issue of this court directing the common
pleas court to carry this judgment into execution.
A certified copy of this entry shall constitute the mandate pursuant to Rule

:he Rules of Appellate Procedure.
FILED AND JOURNALIZED
PER ArP.R. 22(C)

MAY 21 2020
CUYAHOGA COUNIY CLERK
tup rrn’RT Or APPEALS
_ Deputy

KATHLEEN ANN KEOUGH, JUDGE
EILEEN T. GALLAGHER, A.J., and
ANITA LASTER MAYS, J., CONCUR

i

A-48

95555174
95555174

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
THE STATE OF OHIO
Plaintiff

Case No: CR-05-475400-A
Judge: DAVID T MATIA

CHARLES MAXWELL
Defendant

INDICT: 2903.01 AGGRAVATED MURDER /RTS /MEAC
/FRM3
2903.01 AGGRAVATED MURDER /MM /FMS /RTS
/MEAC /FRM3
2905.01 KIDNAPPING/FRM3
ADDITIONAL COUNTS...

JOURNAL ENTRY
DEFENDANT'S MOTION FOR POST-CONVICTION RELIEF IS DENIED.
CLERK ORDERED TO SEND A COPY OF THIS ORDER TO:
RACHEL TROUTMAN, ASSISTANT STATE PUBLIC DEFENDER; 250 EAST BROAD STREET, SUITE 1400, COLUMBUS,
OHIO 43215

09/02/2016
CPCG1 09/02/2016 15:29:05

1_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _

Judge Signature

09/08/2016

HEAR
09/02/2016
RECEIVED FOR FILING
09/08/2016 14:36:56

NAILAH K. BYRD, CLERK

A-49

APPENDIX Page
C

1 of 1

105302996
105302996

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
THE STATE OF OHIO
Plaintiff

Case No: CR-05-475400-A
Judge: DAVID T MAT!A

CHARLES MAXWELL
Defendant

INDICT: 2903.01 AGGRAVATED MURDER /RTS /MEAC
/FRM3
2903.01 AGGRAVATED MURDER /MM /FMS /RTS
/MEAC /FRM3
2905.01 KIDNAPPING/FRM3
ADDITIONAL COUNTS...

JOURNAL ENTRY
STATE'S FINDINGS OF FACT AND CONCLUSIONS OF LAW IS GRANTED.
ENTRY IS SIGNED, ATTACHED AND ORDERED FILED. OSJ.

08/31/2018
CPDEJ 08/31/2018 14:31:43

Judge Signature

Date

icsa

f.yy

o;";

f -n
-a

fT5 C3
i»'T*

i ir

■

T>

nri
eBrrnsrro
emsnaD

1

@11
o

JO
CD
JO

HEAR
08/31/2018

A-50

APPENDIX Page
D

1 of 1

IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CRIMINAL DIVISION
STATE OF OHIO

)

CASE NO. CR 475400

Plaintiff

)

JUDGE DAVID T. MATIA

-vs-

)

FINDINGS OF FACT AND
CONCLUSIONS OF LAW

CHARLES MAXWELL

)

Defendant

)

Upon consideration of the Defendant-Petitioner Charles Maxwell's Petition for
Postconviction Relief, the first and second amendments thereto, all attachments, the
State's Brief in Opposition to Maxwell's Petition for Postconviction Relief, all files and
records pertaining to these proceedings, the applicable statutes and case law, including

State v. Maxwell, 139 Ohio St.3d 12, 2014-0hio-1019, 2014 Ohio LEXIS 637, 9 N.E.3d 930
(2014), the Court, pursuant to R.C. 2953.21(C), hereby makes the following Findings of
Fact and Conclusions of Law.
FINDINGS OF FACT
I.

Procedural History.
1. On January 4, 2006, the Cuyahoga County Grand Jury returned an eight-count
indictment against Defendant Charles Maxwell for the aggravated murder of
Nichole McCorkle and other offenses, which occurred on November 27, 2005.
2, Count one of the indictment was for Aggravated Murder, R.C. 2903.01(A)(1).
Count two was for Aggravated Murder, R.C. 2903.01(B). The first count charged
Maxwell with the Aggravated Murder of Ms. McCorkle by prior calculation and
3

A-51

design. The second count charged Maxwell with the Aggravated Murder of Ms.
McCorkle by purposely causing her death while committing, attempting to
commit, or fleeing immediately after committing, attempting to commit
Kidnapping and/or Aggravated Burglary. Both counts one and two contained five
specifications as follows: R.C. 2929.04(A)(5), course of conduct (f.k.a. mass
murder); R.C. 2929.04(A)(7), felony murder; R.C. 2929.04(A)(8), retaliation for
testimony; R.C. 2929.04(A)(3), murder to escape accounting for crime, and R.C.
2941.145, three-year firearm.
3. Count three of the indictment charged Maxwell with Kidnapping, R.C.
2905.01(A)(2) and/or (A)(3) with a three-year firearm specification. Counts four
and five charged Maxwell with the Aggravated Burglary of Ms. McCorkle's home
under alternative, R.C. 2911.11(A)(1) and R.C. 2911.11(A)(2), each with a threeyear firearm specification. Count six charged Maxwell with the Attempted
Murder of Ms. McCorkle's sister, Lauretta Kenney, R.C. 2903.02(A) and 2923.02,
with a three-year firearm specification. Count seven charged Maxwell with
Retaliation against Ms. McCorkle for testifying against Maxwell at grand jury, R.C.
2921.05(B), with a three-year firearm specification. Count eight charged Maxwell
with Having a Weapon While Under Disability, R.C. 2923.13(A), for having a
firearm at the time of the Aggravated Murder.
4. On February 9, 2007, a jury trial commenced, with count eight tried to the Court.
The Court granted Maxwell's Crim. R. 29 motion, acquitting him of counts two
through five. On February 23, 2007, the jury convicted Maxwell of count one,
Aggravated Murder, and the retaliation for testimony, murder to escape
accounting for crime, and three-year firearm specifications. The jury also
convicted Maxwell of count seven, Retaliation, and the three-year firearm
specification. The jury acquitted Maxwell of the course of conduct specifications
in counts one and six, attempted murder, and the three-year firearm specification.
Separately, the Court convicted Maxwell of count eight, Having a Weapon While
Under Disability.
5. The case proceeded to the mitigation phase. Prior to sentencing, the specifications
for retaliation for testimony and murder to escape accounting for crime
specifications were merged. The jury found the aggravating circumstances
outweighed the mitigating factors and recommended that Maxwell be sentenced
to death.
6. On March 21, 2007, the Court accepted the jury's recommendation and sentenced
Maxwell to death on count one. The Court also sentenced Maxwell to a five year
4

A-52

prison term on counts seven, Retaliation, and eight, Having a Weapon While
Under Disability, to run concurrently with each other but consecutively to the
three-year firearm specification.
7. On March 21,2007, the Court filed its written opinion finding that the aggravating
circumstance of retaliation for testimony outweighed the mitigating factors.
8. On May 1, 2007, Maxwell's direct appeal to the Supreme Court of Ohio was filed.
9. On August 11, 2008, Maxwell's Petition for Postconviction Relief was filed; two
amendments were subsequently filed. Maxwell's Petitions set forth twelve
grounds for relief. On October 31, 2008, the State's Brief in Opposition and
Proposed Findings of Fact and Conclusions of Law were separately filed.
10. On March 20, 2014, the Supreme Court of Ohio affirmed Maxwell's judgment of
conviction and sentence of death. State v. Maxwell, 139 Ohio St.3d 12, 2014-Ohio1019, 9 N.E.3d 930 (2014) (Stay granted by State v. Maxwell, 138 Ohio St. 3d 1502,
2014-Ohio-2167, 2014 Ohio LEXIS 1209, 8 N.E.3d 97d (2014); Reconsideration
denied by, Stay denied by State v. Maxwell, 139 Ohio St. 3d 1420, 2014-Ohio-2487,
2014 Ohio LEXIS 1413, 10 N.E.3d 739 (2014); US Supreme Court certiorari denied
by Maxwell v. Ohio, 135 S. Ct. 1400, 191 L. Ed. 2d 372, 2015 U.S. LEXIS 1194 (U.S.,
2015); Reopening denied by State v. Maxwell, 144 Ohio St. 3d 1502, 2016-Ohio-652,
2016 Ohio LEXIS 445,45 N.E.3d 1048 (2016)).
11. On September 8, 2016, this Court denied Maxwell's Petition without a hearing.
Factual Findings Relevant to Postconviction Petition.
1. During a pre-trial competency hearing on February 6, 2007, defense counsel
requested that the Court appoint an expert to conduct a neurological evaluation
of Maxwell, based on unreported concerns raised by their independent expert,
psychologist Dr. John Fabian. (Tr. 40-53). One of Maxwell's claims was that he
received a head injury during a motorcycle accident and lost consciousness. (Tr.
45). Defense counsel informed the Court that Dr. Fabian believed that a
neurological examination should be performed before Dr. Fabian prepared a
report, however, this Court found there was no evidence to suggest that such an
examination was necessary. (Tr. 147-157).

5

A-53

2. This Court denied counsels' request for an expert to conduct a neurological
evaluation based, in part, upon the competency reports offered by Dr. Michael
Aronoff and Dr. Alice Cook, their testimony, and the Court's observations of
Maxwell. (Tr. 40-157). Maxwell was evaluated by Dr. Michael Aronoff of the
Court Psychiatric Clinic and Dr. Alice Cook of North Coast Behavioral Center.
Both psychologists testified at the competency hearing.
3. Dr. Aronoff was unable to render an opinion as to the ultimate issue of whether
Maxwell was competent to stand trial and, due to suspicions of malingering,
referred Maxwell to North Coast for a 20 day evaluation. (Tr. 148-149). Dr. Cook
evaluated Maxwell and concluded to a reasonable degree of psychological
certainty that Maxwell showed no signs of major mental illness or defect and was
competent to stand trial. (Tr. 148-150).
4. "During the competency hearing, Dr. Cook testified that she had talked to
Maxwell about the motorcycle accident, and he told her that he had received no
treatment and had not been hospitalized as a result of the accident. Dr. Aronoff
testified that he had reviewed Maxwell's medical records that showed he was
treated at Meridia-Huron Hospital on March 29, 1999, after the motorcycle
accident. Dr. Aronoff quoted findings from the medical records that reported that
Maxwell was "sitting on motorcycle which was struck from behind by a car at low
speed. He was thrown off the bike on to the right side. No loss of consciousness.
Was wearing a helmet. Right shoulder, right hip, right elbow, right ankle are
painful. No headache or neck pain." Dr. Aronoff also stated that x-rays were taken
of Maxwell's shoulder, elbow, ankle, and hip, and they were all unremarkable.
However, Dr. Aronoff testified that Maxwell told him that he was rendered
unconscious in the motorcycle accident." Maxwell, 139 Ohio St.3d 12, 57.
5. The Supreme Court of Ohio affirmed the denial, finding that Maxwell's medical
records did not reflect that he suffered a loss of consciousness. "Maxwell’s medical
records showed that he suffered no loss of consciousness and reported no
headache or neck pain as a result of that motorcycle accident. Thus, Maxwell's
request merely raised the possibility that he had suffered a brain injury as a result
of a motorcycle accident. It was not supported by anything in his medical records.
Moreover, the medical records contradicted Maxwell's story about what
happened after the accident. Maxwell told Dr. Aronoff that he was rendered
unconscious, and he told Dr. Cook that he received no medical treatment."
Maxwell, 139 Ohio St.3d 12,58.

6

A-54

6. At trial, the evidence showed that Maxwell murdered his long-term girlfriend,
Nichole McCorkle, in retaliation for her failure to change her grand jury testimony
about Maxwell's commission of a felonious assault against her. The victim was
also the mother of Maxwell's four-year old daughter, Cheyenne, who witnessed
Maxwell shoot her mother in the head.
7. John Gregg testified that on October 6, 2005, Maxwell told him he hit the victim
with a gun. (Tr. 1662-1664). Gregg asked Maxwell if he pistol-whipped the victim
and Maxwell said yes, that she had some stiches in her head. (Tr. 1664-1665).
8. John Gregg testified that Maxwell saw a man on television who was sentenced to
eight years for felonious assault and stated that he needed to talk to the victim to
make the incident look like a domestic violence case instead of a felonious assault.
(Tr. 1666). Maxwell and Gregg tried to get the victim to tell the grand jury that
she pushed Maxwell, Maxwell pushed her, she slipped and hit her head on the
stove. (Tr. 1666, 1672). This was done to minimize the victim's story by
eliminating the gun. (Tr. 1672,1740). Gregg further testified that Maxwell told him
he was aware of the TPO against him and an arrest warrant for him. (Tr. 1670).
Gregg further testified that he spoke with the victim because Maxwell knew she
was going to testify before the Grand Jury. (Tr. 1667). Gregg testified that, at
Maxwell's behest, he told the victim that she was supposed to go into the Grand
Jury and stick to the story that it was a simple domestic; that she pushed Maxwell,
Maxwell pushed her, she slipped and hit her head on the stove. (Tr. 1671-1672).
9. John Gregg further testified that Maxwell told him he tried, but was unable, to get
ahold of the victim to find out how she testified (Tr. 1672-1673). Maxwell told
Gregg that when he finally got ahold of the victim, it felt like she was just blowing
him off. (Tr. 1674). Maxwell called the victim on a three-way conversation and
Gregg heard the victim tell Maxwell that she told the truth to the Grand Jury. (Tr.
1675). Gregg testified after the victim hung up, Maxwell was very upset and told
Gregg that "the bitch is going to make me kill her" and asked if Gregg knew where
he could get a gun. (Tr. 1676-1677).
10. Days later, Gregg received a phone call from the victim's sister, who sounded
excited, there was a lot of commotion. (Tr. 1678). Gregg called Maxwell to ask
him if he actually killed the victim. (Tr. 1678-1679). Maxwell told Gregg he killed
the victim, that he had followed her, saw her making out with another guy in the
back of a bar, and followed her and the guy to the victim's house. (Tr. 1679-1680).
Gregg testified Maxwell told him the victim's sister called, he answered and they
argued. Maxwell told Gregg that he heard the victim's sister outside, talking
7

A-55

loudly on the phone, and he opened the door and shot at her but she ran. (Tr.
1681-1682). Gregg testified Maxwell told him he just turned around and shot the
victim, and she fell. (Tr. 1682). Maxwell told Gregg the victim moved, so he shot
her again. (Tr. 1682): Gregg hung up and called 911. (Tr. 1684).
11. The defense counsels' trial strategy depended on raising reasonable doubt to
show that Maxwell was actually innocent of the charge. (Tr. 775-778,1977-1993).
The mitigation strategy depended on calling Maxwell's relatives, co-workers, and
acquaintances to offer testimony as to Maxwell's general history of good
character, that he was an upstanding neighbor, a positive role model, a good
family member, and a versatile, hardworking, dependable worker, as well as
proving residual doubt. (Tr. 2073-2217).
12. The Supreme Court of Ohio found "[t]rial counsel had employed a criminal
investigator, a clinical psychologist who was a mitigation specialist, and another
psychologist who was a mitigation expert" and concluded "the defense had
thoroughly prepared for the penalty phase." Maxwell, 139 Ohio St.3d 12, 52.
I

13. Defense counsels' presented witnesses at mitigation including Maxwell's family
members, acquaintances, and co-workers. Maxwell's brother, William Steward,
cousin, Herbert Nelson, and brother-in-law, Raynard McNear, testified Maxwell
graduated from high school, obtained vocational training, and was a good guy
who worked hard at construction jobs and tree-cutting. (Tr. 2082-2083,2088,2110).
Maxwell's cousin's wife, Veronica Nelson, testified Maxwell was well-behaved,
not drunken or cursing, but well-mannered and loving. (Tr. 2093-2095). Maxwell's
neighbor and employer, Roscoe Home, testified Maxwell was an excellent
worker, trustworthy, and skilled. (Tr. 2098-2102). Maxwell's sisters, Theresa
McNear and Sharon Graves, and brother, Andy Maxwell, testified Maxwell was
a good person, took time with his siblings and nieces, was a guardian, and good
father. (Tr. 2118, 2122, 2139, 2141-2142). Maxwell's mother, Ernestine Brewer,
testified that Maxwell is a good kid, that he might have fallen by the wayside, and
asked the jury to spare his life. (Tr. 2152).
14. Maxwell made an unsworn statement at mitigation. (Tr. 2146-2147). Maxwell told
his daughter he missed her and her mother, the victim, and apologized to the
victim's family "that they had to go through this." (Tr. 2147).
15. Dr. Sandra McPherson testified as a mitigation witness. Dr. McPherson evaluated
Maxwell and administered the Wechsler Adult Intelligence Scale and wide-range
achievement test. Dr. McPherson testified that Maxwell attained a full scale IQ
8

A-56

score of 84, which placed him in the low average range. Dr. McPherson testified
that Maxwell was diagnosed with alcoholism, which, over time, affects brain
function and is another source of organic problems. (T. 2167). Dr. McPherson
testified Maxwell suffered head injuries, from falling off a horse and a motorcycle.
(T. 2168).
16. In his petition, Maxwell argued this Court erred in denying his motion for an
expert to conduct a neurological evaluation and that the State failed to prove he
committed felonious assault. Maxwell also claimed that defense counsel were
ineffective for failing to investigate and present evidence of an organic brain
impairment, failing to interview and present the testimony of Andy Maxwell and
La-Tonya Kindall, allowing Dr. McPherson to act as both investigator and
mitigation expert, failing to present his side of the story, and failing to correct the
misperceptions presented by the State.
17. In support of his claim that he suffered an organic brain injury which should have
been presented to the jury, Maxwell provided the affidavits of his cousin, Rodney
Maxwell, and Barry S. Layton, Ph.D. Rodney Maxwell stated that in the mid1980's, Maxwell/while engaged in a physical fight, fell and hit his head on a
concrete bumper/divider and was kicked in the head. Maxwell remained
conscious and was hospitalized overnight. Maxwell concluded, based on Rodney
Maxwell's affidavit, that "Maxwell suffered a traumatic brain injury (TBI) in
1986." (Petition, pg. 15).
18. Dr. Layton stated that Maxwell suffered from a significant brain impairment. In
support, Dr. Layton stated that the evidence, including the record of Maxwell's
admittance to Howard Hospital and his own neuropsychological examination,
was consistent with effects of this serious head injury. (Petition, Exh. 3, pg. 2).
Also submitted as an exhibit was a one-page message from Howard Hospital to
defense counsel stating Maxwell was a patient from August 6,1986 to August 7,
1986, but "these records have been destroyed." (Petition, Exh. 7).
19. Maxwell also submitted the mitigation report of Dr. McPherson in which she
stated that Maxwell maintained his innocence. (Exh. 5, pg 10). In her report, Dr.
McPherson set forth Maxwell's statement that in 1985, he got into a fight with
"some dude[,]" and fell and hit his head on a rock. Maxwell stated that he was
unconscious and hospitalized for two days, after which he suffered headaches.
(Exh. 5, pg. 4). Further, Dr. McPherson testified at mitigation that Maxwell
suffered head trauma and had neurological problems as a result of falling off a
horse and a motorcycle accident. (Tr. 2167-2168)

A-57

20. Maxwell also submitted the affidavits of his brother, Andy Maxwell, and friend,
La-Tonya Kindell. Maxwell stated Andy Maxwell would have testified that the
victim struck Maxwell in the head before he struck her, leaving Maxwell with a
knot on his head, demonstrating that Maxwell acted in self-defense. Andy
Maxwell also would have testified that he spoke with Maxwell the night of the
murder and Maxwell had gone to the victim's house to patch up their
relationship. Andy Maxwell stated he would have testified that Maxwell, upon
seeing the victim with another man, acted out of jealousy and anger, disproving
that he acted with prior calculation and design. Maxwell stated Kindell, a nurse,
would have testified that she thought the victim's head injury was caused by a
meat tenderizer, not a handgun.
21. Maxwell also submitted defense counsels' sentencing memorandum and the
affidavits of Andy Maxwell and Dr. Layton in support of his claim that Dr.
McPherson's mitigation was inadequate.
22. As more fully discussed below, while the evidence submitted in support of
Maxwell's Petition may have some mitigatory weight, this Court finds that it
would not have outweighed the aggravating circumstance, and therefore does not
establish prejudice. Any potential mitigation is completely undermined by
Maxwell's ultimate act of vicious betrayal against his daughter: the enduring
memory of her life will be witnessing her mother being shot in the head by her
father. This simply cannot be reconciled with the statement that "Maxwell doted
on his daughter, Cheyenne." (Petition, pg. 40).
23. The evidence at trial established that Maxwell planned to murder the victim over
a four-day period, during which he could have abandoned his plan, but did not.
Maxwell threatened to kill the victim, obtained a gun, followed the victim, and
entered her home after a witness left. Maxwell shot the victim, then shot her again
because she was still moving. This Court finds that the evidence that Maxwell
planned and carried out the execution of the victim, a witness/victim against him
in a pending felonious assault case, was much more compelling than the evidence
offered to show Maxwell suddenly killed the victim in a fit of jealous rage.
24. In its sentencing opinion, this Court concluded that Maxwell's life, including the
love of his family, lacked depth. Any mitigation that might exist of his past care
of his family was thoroughly outweighed by the aggravating circumstance, as
well as his conduct during trial. When given the opportunity to make a statement
to the families, Maxwell refused to apologize or take responsibility for his actions.
Instead, Maxwell stated that "I wouldn't want nobody's family to go through
10

A-58

this" and that he was "sorry they had to go through this." (Tr. 2146-2147).
Maxwell also stated that he "did this" (go to trial) just so he could see his daughter
"this one last time." (Tr. 2146). Rather than expressing sincere remorse, Maxwell
continued to deny responsibility and therefore real remorse. Maxwell forced his
daughter to undergo the traumatic experience of testifying before a jury about
seeing him shoot her mother, just so he could see her "this one last time,"
CONCLUSIONS OF LAW
A. Standard of Review for Postconviction Relief.
1. To prevail on a post-conviction claim, the petitioner must demonstrate a denial or
infringement of his rights in the proceedings resulting in his conviction that
rendered the conviction, void or voidable under the Ohio Constitution or the
United States Constitution. R.C. 2953.21(A)(1). A postconviction petitioner bears
the initial burden of demonstrating "substantive grounds for relief" through the
petition, supporting affidavits, other documentary evidence, and the trial record.
R.C. 2953.21(C).
L
2. A postconviction claim is subject to dismissal without a hearing if the petitioner
has failed to support the claim with evidentiary material setting forth sufficient
operative facts to demonstrate substantive grounds for relief. State v. Fair, 8th Dist.
Cuyahoga 84498,2009-Ohio-2382,19. "The burden is on the defendant to present
evidence of substantive grounds for relief, before the trial court is required to hold
a hearing." Id.., 'll 16. See also State v. Calhoun, 86 Ohio St.3d 279, 714 N.E. 2d 905
(1999).
3. Moreover, this Court is not required to accept as credible affidavits submitted in
support of a petition. "When reviewing a postconviction petition, 'a trial court
should give due deference to affidavits sworn to under oath and filed in support
of the petition, but may, in the sound exercise of discretion, judge the credibility
of the affidavits in determining whether to accept the affidavits as true statements
of fact.' Calhoun, 86 Ohio St.3d 279, 1999 Ohio 102, 714 N.E.2d 905, at paragraph
one of the syllabus." State v. Cody, 8th Dist. Cuyahoga 102213, 2015-Ohio-2764,1
33.
4. This Court therefore has based its decision solely on the governing legal standard
in R.C. 2932.21: a hearing is required only if the petition, in light of all the
pleadings, the record, and other evidence, sets forth sufficient operative facts to
establish substantive grounds for relief.
11

A-59

B. First Ground for Relief:
The Trial Court Erred in Denying Maxwell's Motion
for a Neurological Evaluation.
5. In his First Ground for Relief, Maxwell argued the Court erred in denying his pre­
trial motion for a neurological evaluation, alleging that he could have produced
evidence that he suffered from a brain injury. Maxwell claimed that "but for the
denial of these funds, a qualified expert could have performed a battery of
neurological tests and revealed Maxwell's neurological deficits." (Petition, pg. 17).
6. Insofar as this claim was considered and rejected by the Supreme Court of Ohio,
it is barred by res judicata. The Supreme Court of Ohio held "the trial court did
not abuse its discretion in denying the defense request for a neurologist." State v.
Maxwell, 139 Ohio St.3d 12, 59, 2014-0hio-1019, 9 N.E.3d 930 (2014). The Court
found that Maxwell's medical records contradicted Maxwell account that he was
rendered unconscious, as the records showed he suffered no loss of consciousness
and reported no headache or neck pain as a result of the accident. Id. at 58. The
Court further found that Maxwell's request "merely raised the possibility that he
had suffered a brain injury as a result of the motorcycle accident. It was not
supported by anything in his medical records." Id. at 58.
7. In support of his claim, Maxwell provided the affidavits of his cousin, Rodney
Maxwell, and Barry S. Layton, Ph.D. Rodney Maxwell stated that in the mid1980's, Maxwell, while engaged in a physical fight, fell and hit his head on a
concrete bumper/divider and was kicked in the head. Maxwell remained
conscious and was hospitalized overnight. Maxwell concludes, based on Rodney
Maxwell's affidavit, that "Maxwell suffered a traumatic brain injury (TBI) in 1986."
(Petition, pg. 15).
8. Dr. Layton stated that Maxwell suffered from a significant brain impairment. In
support, Dr. Layton alleged that the evidence, including the record of Maxwell's
admittance to Howard Hospital and his own neuropsychological examination,
was consistent with effects of this serious head injury. (Petition, Exh. 3, pg. 2).
Also submitted as an exhibit, however, was a one-page message from Howard
Hospital to defense counsel stating Maxwell was a patient from August 6,1986 to
August 7, 1986, but "these records have been destroyed." (Petition, Exh. 7).
9. To the extent Maxwell has provided evidence outside the record in support of his
Petition, this Court finds that it is only marginally significant. Rodney Maxwell's
account of Maxwell striking his head as detailed in his affidavit was available to
12

A-60

Maxwell at the time of his trial. Similar to his claim of injury as a result of a
motorcycle accident, Maxwell's claim is not supported by medical records. The
Supreme Court of Ohio found that Maxwell's account of injuries from a
motorcycle accident, the basis for his request for a neurologist, was contradicted
by Maxwell's medical records. From Rodney Maxwell's account, however, Dr.
Barry Layton concluded that Maxwell suffered a serious brain injury in 1986, and
that the area of Maxwell's brain impairment as determined on Dr. Layton's
neuropsychological examination was consistent with the effects of Maxwell's
serious head injury. (Petition, Exh. 3, pg. 2).
10. Even assuming the truth of Rodney Maxwell's account, this Court finds that
Maxwell has not credibly demonstrated that the parking lot altercation supports a
credible diagnosis of a serious "organic brain injury." Maxwell acknowledged that
there are no medical records of an actual injury to support this claim. (Petition,
Exh. 7). Dr. Layton, however, opined that Maxwell's self-reported amnesia after
the incident and lack of prior serious criminal activity, contrasted by Maxwell's
nine traffic citations and two prison terms after the alleged injury, demonstrates
that Maxwell sustained a "brain impairment, particularly in the anterior of the
brain (the frontal cerebrum)." (Petition, Exh. 3, pg. 2). In Dr. Layton's opinion,
"Maxwell's impairment impacts his ability to exercise judgment, plan, and
effectively monitor his behavior. It also effects his regulation of emotions,
particularly under stress. As a result of neurological impairment he also has
significant difficulty behaving adaptively and effectively in his own interest."
(Petition, Exh. 3, pg. 3).
11. This Court finds that Dr. Layton's reliance on Rodney Maxwell's account and
Maxwell's criminal history before and after the 1986 incident fail to credibly prove
that Maxwell suffered from the effects of an organic brain injury. Maxwell was
not involved in criminal activity for several years following the alleged brain
injury. In her report, Dr. McPherson described Maxwell having worked at an
airport from 1987 to 1989. (Petition, Exh. 5, pg. 5). There were no significant
criminal incidents until 1990, when Maxwell was incarcerated for selling drugs.
(Petition, Exh. 5, pg. 5). Dr. Layton's emphasis on a series of traffic tickets Maxwell
received following the 1986 incident is similarly unconvincing. Dr. Layton
provided no data regarding Maxwell's driving history before 1986 (i.e.,
independent evidence as to whether Maxwell owned a car, when or if he obtained
a license, or his driving habits).

13

A-61

12. Dr. Layton has previously made unconvincing claims regarding organic brain
injuries on behalf of litigants in criminal and civil cases. The Eighth District Court
of Appeals found that presenting Dr. Layton's opinion to a jury would have been
"futile" in a case in which Dr. Layton offered an opinion that a serial rapist
suffered from "an organic brain defect of unknown etiology" that produced an
"irresistible impulse." State v. Ford, 8th Dist. Cuyahoga Nos. 88946, 88947, 2007Ohio-5722 ("Irresistible impulse is not an excuse for an offense by a person who
does not otherwise meet the definition of insanity."); see also State ex rel. Keener v.
Farnsworth, 10th Dist. Franklin No. 05-AP963, 2006-Ohio-4233, 23 (describing the
rejection of Dr. Layton's opinion that a relator suffered from organic brain injury
as a result of a concussion was permanently disabled, and finding another expert's
opinion to be more credible that relator was most likely simulating or exaggerating
her injuries and that she had no neuropsychological limitation to return to work.)
13. In Ford, the Eighth District further found that another expert found evidence of
malingering where Dr. Layton had found evidence of a brain injury. "A
comprehensive battery of tests was subsequently administered to defendant, and
in March 2006, neuropsychologist Barry Layton opined that defendant suffered
from organic brain dysfunction of unknown etiology.
Galit Dori, a
neuropsychologist with the Court Psychiatric Clinic found, however, that
defendant was exaggerating or malingering short-term memory deficits." Ford, at
15.
14. Moreover, Maxwell was evaluated by two experts, one of whom concluded
Maxwell was competent to stand trial, the other suggested Maxwell may have
been malingering psychiatric symptoms such as hallucinations. Maxwell's request
for a neurological examination was denied because Maxwell failed to submit any
credible or competent evidence to show a neurological examination was
necessary.
15. This Court finds that Maxwell's First Ground for Relief is without merit. Insofar
as this claim was considered and rejected by the Supreme Court of Ohio, it is
barred by res judicata. Further, the Court finds that to the extent Maxwell has
provided evidence outside the record it is only marginally significant and does not
advance his claim.

14

A-62

C. Second Ground for Relief:
Defense counsel was ineffective for failing to
present mitigation of Maxwell's organic brain impairment.
D. Third Ground for Relief: Defense counsel was ineffective for failing to
investigate Maxwell's organic brain dysfunction at trial.
16. In his Second and Third Grounds for Relief, Maxwell argued that trial counsel was
ineffective for failing to present mitigation evidence of an alleged organic brain
impairment and failing to investigate Maxwell's alleged organic brain
dysfunction.
17. In support, Maxwell cited to the same documents as provided to support his first
claim, the affidavits of his cousin, Rodney Maxwell, and Barry S. Layton, Ph.D.
18. In his affidavit, Rodney Maxwell alleged that in the mid-1980's, Maxwell, while
engaged in a physical fight, fell and hit his head on a concrete bumper/divider and
was kicked in the head. Maxwell remained conscious and was hospitalized
overnight. Maxwell concluded, based on Rodney 'Maxwell's affidavit, that
"Maxwell suffered a traumatic brain injury (TBI) in 1986." (Petition, pg. 15).
19. In his affidavit, Dr. Layton stated that Maxwell suffered from a significant brain
impairment. In support, Dr. Layton stated that the evidence, including the record
of Maxwell's admittance to Howard Hospital and his own neuropsychological
examination, was consistent with effects of this serious head injury. (Petition, Exh.
3, pg. 2). Also submitted was a one-page message from Howard Hospital to
defense counsel stating Maxwell was a patient from August 6, 1986 to August 7,
1986, but "these records have been destroyed." (Petition, Exh. 7). Dr. Layton
opined that Maxwell's self-reported amnesia after the incident and lack of prior
serious criminal activity, contrasted by Maxwell's nine traffic citations and two
prison terms after the alleged injury, demonstrated that Maxwell sustained a
"brain impairment, particularly in the anterior of the brain (the frontal cerebrum)."
(Petition, Exh. 3, pg. 2).
20. "Reversal of a conviction for ineffective assistance requires that the defendant
show, first, that counsel's performance was deficient and, second, that the deficient
performance prejudiced the defense so as to deprive the defendant of a fair trial.
Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).
Accord State v. Bradley, 42 Ohio St.3d 136, 538 N.E.2d 373 (1989), paragraph two of
the syllabus." Maxwell, 139 Ohio St.3d 12, at 28.

15

A-63

21. "[T]he defendant must show that there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to undermine
confidence in the outcome." Id., at 694, 104 S.Ct. at 2068, 80 L.Ed.2d at 698. See,
also, State v. Bradley (1989), 42 Ohio St.3d 136, 538 N.E.2d 373, paragraphs two and
three of the syllabus. Strickland charges uS to "[apply] a heavy measure of
deference to counsel's judgments," 466 U.S. at 691,104 S.Ct. at 2066, 80 L.Ed. 2d at
695, and to "indulge a strong presumption that counsel's conduct falls within the
wide range of reasonable professional assistance," id. at 689, 104 S.Ct. at 2065, 80
L.Ed.2d at 694. Moreover, we must bear in mind that appellate counsel need not
raise every possible issue in order to render constitutionally effective assistance.
See Jones v. Barnes (1983), 463 U.S. 745, 103 S.Ct. 3308, 77 L.Ed.2d 987." State v.
Sanders, 94 Ohio St.3d 150, 151-152 (2002).
22. Insofar as the Supreme Court of Ohio held this Court properly denied Maxwell's
request for a neurological examination, this claim is barred by res judicata. As set
forth above, the Court found that Maxwell "merely raised the possibility that he
had suffered a brain injury as a result of the motorcycle accident. It was not
supported by anything in his medical records." Id. at 58. As such, there was no
evidence of an organic brain impairment to present.
23. The burden of demonstrating ineffective assistance of counsel is on Maxwell. This
Court finds there is no credible diagnosis that he suffered a "traumatic brain
injury" as opined by Maxwell's cousin as a result of a 1986 parking lot fight.
Maxwell acknowledged that there are no medical records of an actual injury to
support his claim. (Petition, Exh. 7). Insofar as this information was available to
Maxwell before trial, but not raised, this claim is barred by res judicata.
24. Moreover, as discussed above in Paragraph 11, Dr. Layton's reliance on Rodney
Maxwell's account and Maxwell's criminal history before and after the 1986
incident fail to credibly prove that Maxwell suffered from the effects of an organic
brain injury. The evidentiary leap from a parking lot fight to a diagnosis of a
serious "organic brain injury" based, in part, on receiving parking tickets is so
great an inference that it inherently lacks credibility.
25. A review of the trial proceedings also demonstrates that contrary to Dr. Layton's
opinion, Maxwell was able to effectively exercise judgment, plan, monitor his
behavior, and behave adaptively and effectively in his own interest. An example
of behaving adaptively and effectively in one's own interest would be malingering
to escape full accountability for a murder. Dr. Aronoff reported that he had
16

A-64

identify a possibility that Maxwell was "malingering," and may have been
"malingering or embellishing symptoms of mental illness and/or cognitive
defects." (Tr. 21).
26. Dr. Aronoff's October 2, 2006 report was read into the record and explained that
"[i]t is possible the defendant is malingering or embellishing the nature and
severity [of] the symptoms of mental illness as it does not appear that he has a
prior psychiatric history." The report continued, "[i]t is also possible that Mr.
Maxwell is malingering or minimally embellishing the nature and severity of his
cognitive deficits." (Tr. 41). "Given the severe sentence the defendant could
receive if convicted of these charges, there is secondary gain to be had by
malingering or embellishing symptoms of mental illness or cognitive defects." (Tr.
42).
27. In response to Dr. Aronoff s concerns of malingering, Maxwell was evaluated for
20 days, 24 hours a day, under the care of Dr. Alice Cook at Northcoast Behavioral
Health Care Center, because "[i]f s very difficult to malinger around the clock."
(Tr. 66-68). After the evaluation, Dr. Cook concluded that Maxwell "understood
the legal proceedings against him and is able to assist his attorney in his defense."
(Tr. 70). In a one-on-one interview, Maxwell cooperated with Dr. Cook, allowing
Dr. Cook to conclude that Maxwell "did understand what he was being charged
of." (Tr. 76). Dr. Cook found Maxwell:
[understood that he was facing a death penalty. He understood that all of
his charges were felonies. He comprehended the reality of the situation in
which he found himself. His vocabulary included terms that people
familiar with the Courts would use, for instance volunteering the phrase
death penalty and those expressions such as that.
He understood the roles of the various courtroom personnel. He simply
understood the various plea options available to him and how they might
apply to his situation. He gave me information about the day of the alleged
offense * * *. He communicated with me clearly. His thinking appeared fine.
There appeared no obstacles in his communication.
(Tr. 76-77).
28. Maxwell also showed significant adaptive behavior at work and in the
community
Maxwell's brother, William Steward, testified Maxwell had
graduated high school, got some vocational training afterward, and had skills
17

A-65

operating heavy machinery. (Tr. 2082-2083). Maxwell's neighbor and employer,
Roscoe Home, testified that he had known Maxwell for over five years and had
worked with him, stating Maxwell has "done excavating, he's ran heavy
equipment. He's an excellent operator of heavy equipment. He also drives dump
trucks, all types of different vehicles or whatnot and he's just a very trustworthy
person." (Tr. 2098). Mr. Home described Maxwell as a versatile and excellent
worker, "if there was a problem, he's the first to try to fix it." (Tr. 2099). Mr. Horne
testified he relied on Maxwell's ability to successfully communicate and interact
with other workers. (Tr. 2100). Maxwell's brother, Andy Maxwell, testified that
he viewed his brother as a teacher who always took the time to guide him through
life. (Tr. 2137-2141). Andy Maxwell testified that Maxwell had a special skills for
training horses. (Tr. 2142). Andy Maxwell also testified that Maxwell was a very
knowledgeable person who sought to help other felons obtain jobs by copying
information posted at a barbershop. (Tr. 2143).
29. This Court's observations of Maxwell support the conclusion that he could
exercise judgment, plan, and monitor his own behavior. This Court noted that
Maxwell had filed a lucid, intelligent, and well thought-out pro se motion to
disqualify counsel. (Tr. 150). Likewise, this Court "observed Mr. Maxwell actively
reviewing exhibits as they were passed to his attorneys by the prosecution. He
was reading those exhibits. He was nodding to Mr. Luskin in agreement. They
were communicating before this Court at [the] trial table." (Tr. 150).
30. Contrary to Maxwell's claim, counsel did investigate Maxwell's claim of an
organic brain injury. As stated above, the possibility that Maxwell suffered a brain
injury was raised by trial counsel, upon the recommendation of Dr. Fabian. The
Supreme Court of Ohio affirmed the trial court's denial of the appointment of a
neurologist, holding that "a defendant must show not just a mere possibility but a
reasonable probability that an expert would aid in his defense." Maxwell, 139 Ohio
St.3d 12, 58. The Court found that Maxwell's medical records contradicted his
account that he was rendered unconscious, as the records showed he suffered no
loss of consciousness and reported no headache or neck pain as a result of the
accident. Id. at 58. As no competent information was provided to support
Maxwell's claim of a brain injury, the Supreme Court of Ohio found no error.
31. Further, the jury heard testimony of the possibility of Maxwell's brain injury. Dr.
Sandra McPherson testified during mitigation that Maxwell was diagnosed with
alcoholism, which, over time, affects brain function and is another source of
organic problems. (T. 2167). Dr. McPherson testified Maxwell suffered head
injuries, from falling off a horse and a motorcycle. (T. 2168).
18

A-66

32. Moreover, Maxwell's trial strategy depended on raising reasonable doubt to show
that he was actually innocent of the charges. (Tr. 1977-1993). Maxwell's mitigation
strategy depended on calling his relatives and acquaintances to testify as to his
general history of good character, that he was a versatile and dependable worker,
an upstanding neighbor, a positive role model, and a good family member, as well
as proving residual doubt. (Tr. 2073-2217).
33. Defense counsels' choice not to present evidence of the possibility of a brain injury
to negate the element of prior calculation and design was a reasonable strategic
choice. Had counsel offered such evidence, Maxwell's defense as being actually
innocent would have been undercut; any doubt of Maxwell's guilt would have
been eliminated. See State v. Miller, 1st Dist. Hamilton No. C-120109, 2012-Ohio5964, 1 22 ("Defense counsel may have had legitimate tactical grounds for not
pursuing an insanity defense. At trial, Miller presented an alibi defense, which
would have been inconsistent with an insanity defense, and could have confused
the jury."); State v. Monford, 131 Ohio St.3d 40, 42 (2011) ("The Tenth District also
noted that throughout the entire trial, Monford relied upon a misidentification
defense—that he was not the shooter and that witnesses who identified him as the
shooter were mistaken. Id. at ^ 74. Because Monford's defense was wholly
inconsistent with a defense of not guilty by reason of insanity, the Tenth District
held that no structural error had occurred. Id. at 1 76."); State v. Osburn, 9 Ohio
app.3d 343, 344 ("Obviously, trial counsel elected to defend on the theory of
accident; a theory which is strategically inconsistent with a defense of insanity.
Therefore, the claimed error directed to the ineffective assistance of counsel is not
supported by the record.")
34. A defense of an organic brain injury, like a defense of insanity, would have
constituted an admission that Maxwell murdered the victim, virtually ensuring
his conviction. In this context, as well as the lack of credible evidence of an actual
brain injury and the speculative nature of Dr. Layton's opinion, Maxwell has not
demonstrated that defense counsels' strategic choice amounted to deficient
performance within the meaning of Strickland.
35. The Court finds that Maxwell's Second and Third Grounds for Relief are without
merit, as he has failed to demonstrate that counsels' performance was deficient.
Counsel were not ineffective for failing to present evidence of an organic brain
impairment where Maxwell "merely raised the possibility that he had suffered a
brain injury. It was not supported by anything in his medical records." Maxwell,
139 Ohio St.3d 12, at 58. Further, counsel did in fact investigate the possibility of
Maxwell's alleged organic brain dysfunction.
19

A-67

E. Fourth Ground for Relief: Defense counsel allegedly failed to investigate the
felonious assault that was used to prove the aggravating circumstance(s).
F. Fifth Ground for Relief: Defense counsel was ineffective for allegedly failing to
speak with Andy Maxwell and La-Tonya Kindell (who he claims could help
prove that Maxwell did not retaliate against a witness or act with prior
calculation and design).
G. Eighth Ground for Relief: Defense counsels were ineffective for their alleged
failure to call Andy Maxwell who could have testified that the victim, by kissing
another male, provoked Maxwell's lethal reaction and had been abusive toward
Maxwell in the past.
H. Ninth Ground for Relief: Defense counsel was ineffective for allegedly failing
to present the testimony of Andy Maxwell and La-Tonya Kindell (who he claims
could help prove that Maxwell did not retaliate against a witness or act with
prior calculation and design).
I

36. In his Fourth, Fifth, Eighth, and Ninth Grounds for Relief, Maxwell claimed trial
counsel were ineffective for failing to investigate the felonious assault claim,
specifically, failing to speak with Andy Maxwell and La-Tonya Kindell, and failing
to present their testimony.
37. In his Fourth and Fifth grounds for relief, Maxwell claimed trial counsel failed to
interview his brother, Andy Maxwell, and friend, La-Tonya Kindell. Maxwell
stated that, as provided in their affidavits, Andy Maxwell would have told counsel
that the victim struck Maxwell in the head before he struck her, demonstrating
Maxwell acted in self-defense, and that Kindell thought the victim's head injury
was caused by a meat tenderizer, not a handgun. Based on this information,
Maxwell argued trial counsel could have proved he did not commit felonious
assault.
38. Maxwell further claimed that counsel failed to present the testimony of Andy
Maxwell and La-Tonya Kindell, which could have disproved the element of prior
calculation and design. Andy Maxwell would have testified that Maxwell called
him both before and after killing the victim, first to state he and the victim were
working things out, then to complain that he was frustrated and overwhelmed by
the victim's emotional abuse and having given him a sexually transmitted disease.

20

A-68

39. Initially, Andy Maxwell testified for Maxwell during mitigation. In his affidavit,
Andy Maxwell stated he met with the defense investigator and Dr. McPherson,
but did not share with Dr. McPherson the information in his affidavit, because she
did not ask. (Exh. 7, pg. 3-4). Andy Maxwell also stated that trial counsel never
met with him, just talked to him quickly in the courthouse. (Exh. 7, pg. 3). Based
on Andy Maxwell's own affidavit, he was interviewed and had the opportunity to
share this information with the defense, but did not do so.
40. Assuming the truth of Andy Maxwell's affidavit, his testimony that Maxwell
called him, sounded weird and upset, stated he had been at the victim's house,
saw her with another man, followed the victim and other man to a bar, and
discovered the victim was cheating on him, would have eliminated any doubt that
Maxwell murdered the victim. Such testimony would have been inconsistent with
Maxwell's defense of actual innocence and virtually ensured his conviction. While
this testimony may have supported a claim that Maxwell acted in the heat of
passion, rather than to retaliate against the victim, it would have destroyed
Maxwell's claim of actual innocence. As such, counsels' decision not to present
this evidence was a strategic choice and virtually unchallengeable. See Strickland
v. Washington, 466 U.S. 668,691 (1984). Maxwell has not demonstrate that counsels'
performance was deficient.
41. Nor has Maxwell demonstrated that the testimony of Andy Maxwell and LaTonya Kindell would have disproved the claim of felonious assault. As discussed
below, this Court concluded that John Gregg's testimony regarding Maxwell's
admissions, including that he struck the victim with a gun, was credible and
consistent. (March 23, 2007 Opinion of the Court, pg. 12-13). Kindell's claim that
she believed the victim's wound was consistent with being struck with a meat
tenderizer instead of a gun does not disprove felonious assault. Andy Maxwell's
claim that Maxwell had a knot on his head which Maxwell attributed to having
been struck on the head by the victim with a frying pan, does not disprove
felonious assault or prove Maxwell acted in self-defense. Unlike the victim's welldocumented injuries, Maxwell has failed to provide any independent proof of his
alleged injuries to support his claim he acted in self-defense. As more fully
discussed below, a claim of self-defense would have been inconsistent with
Maxwell's claim of actual innocence. Maxwell has failed to demonstrate that
counsels' failure to present this evidence constituted deficient performance.
42. This Court finds that the affidavits submitted in support of these claims do not
demonstrate that the victim was the aggressor and provoked Maxwell into
committing felonious assault and/or aggravated murder. Evidence of past
21

A-69

altercations between the victim and Maxwell do not disprove he acted with prior
calculation and design or that the victim induced retaliation or murder to escape
apprehension. In addition to the evidence set forth below, John Gregg testified
that Maxwell to him, "the bitch is going to make me kill her." (Tr. 1676). Maxwell
then asked Gregg if he knew where he could get a gun. (Tr. 1677).
43. Gregg testified that days later, he received a phone call from the victim's sister,
who sounded excited, there was a lot of commotion. (Tr. 1678). Gregg called
Maxwell to ask him if he actually killed the victim. (Tr. 1678-1679). Maxwell told
Gregg he killed the victim, that he had followed her, saw her making out with
another guy in the back of a bar, and followed her and the guy to the victim's
house. (Tr. 1679-1680). Gregg testified Maxwell told him the victim's sister called,
he answered and they argued. Maxwell told Gregg that he heard the victim's sister
outside, talking loudly on the phone, and he opened the door and shot at her but
she ran. (Tr. 1681-1682). Gregg testified Maxwell told him he just turned around
and shot the victim, and she fell. (Tr. 1682). Maxwell told Gregg the victim moved,
so he shot her again. (Tr. 1682). Gregg hung up and called 911. (Tr. 1684).
t

44. The evidence presented at trial established Maxwell did not murder the victim in
a jealous rage, but as a result of careful and deliberate planning. Maxwell followed
the victim from her home, to a bar, then home again in his car. The victim's sister,
Lauretta Kenney, testified that when she arrived at the victim's home before the
murder, Maxwell's car was not parked on the street or the driveway, nor did she
see it when she ran after Maxwell after the murder. Kenney testified that after the
murder, Maxwell jogged away. (Tr. 1032-1033, 1042). Apparently, Maxwell
parked his car some distance away. Maxwell's behavior indicated a planned
execution over the course of days, not a sudden killing in a fit of jealous rage.
45. The evidence presented in support of these grounds is marginally significant and,
had it been presented at trial, inconsistent with Maxwell's defense of actual
innocence. The Supreme Court of Ohio rejected Maxwell's argument that the
evidence showed he spontaneously shot the victim after seeing her with another
man, kissing him goodnight, and receiving phone calls from him at home.
Maxwell, at 44. "Maxwell’s argument overlooks the evidence showing that he shot
Nichole in retaliation for her failure to change her grand jury testimony about the
felonious assault." Id. Maxwell's current evidence does not disprove that he acted
with prior calculation and design or in retaliation. Maxwell has failed to
demonstrate counsels' performance was deficient in not presenting the testimony
of Andy Maxwell and/or La-Tonya Kindell.

22

A-70

46. This Court finds that Maxwell has failed to demonstrate that counsels'
performance was deficient, under the standards set forth in Strickland.
I. Sixth Ground for Relief: Maxwell is innocent of aggravating circumstances
because the State allegedly did not prove the elements of felonious assault.
47. In his Sixth Ground for relief, Maxwell claimed the State failed to prove he was
guilty of felonious assault as required under State v. Jones, 91 Ohio St.3d 335 (2001).
("We find that the defendant's commission of the prior offense constitutes an
essential element of the R.C. 2929.04(A)(3) specification.") Maxwell further
claimed that he reacted in self-defense, only striking the victim after she first struck
him with a frying pan.
48. Maxwell's claim is barred by res judicata as this issue could have been raised on
direct appeal. The information within the supporting affidavits of Maxwell's
family and friends was in existence and available for use at the time of trial.
"Issues properly raised in a petition for postconviction relief are those that could
not have been raised on direct appeal because the evidence supporting such issues
is outside the record. State v. Durr (July 28,1994), Cuyahoga App. No. 65958,1994
Ohio App. LEXIS 3758. If an issue has, or should have been raised on direct appeal,
the trial court may dismiss the petition on the basis of res judicata. State v. Spisak,
Cuyahoga App. No. 67229, 1995 Ohio App. LEXIS 1567." State v. Foust, 8th Dist.
Cuyahoga No. 83771, 2005-0hio-5331,112.
49. The evidence outside the record provided by Maxwell is only marginally
significant and does not advance Maxwell's claim. The fact that Ms. Kindall
believes Maxwell struck the victim with a meat tenderizer rather than a pistol does
not disprove the commission of felonious assault, nor does Andy Maxwell's
assertion that Maxwell had a knot on his head. Maxwell has failed to present any
independent proof of his injuries to support his claim of self-defense! Any proof,
had it existed, would have been available for use at trial, as was the option of
asserting a self-defense claim. The affidavit of a juror who stated he would have
wanted to know about any abuse the victim inflicted on Maxwell does not advance
Maxwell's claim. While Maxwell claimed he acted in self-defense, to sustain his
burden he would have had to testify at trial and admit to having shot the victim
to death. Such testimony would have been wholly inconsistent with his defense
of actual innocence. Assuming Maxwell provided this information to counsel and
the truth of the affidavits, counsels' decision not to present this evidence could
well have been a strategic choice, and thus virtually unchallengeable. See
Strickland v. Washington, 466 U.S. 668, 691 (1984).
23

A-71

50. This Court finds that the State proved Maxwell committed felonious assault. This
Court has concluded that the testimony of John Gregg regarding Maxwell's
admissions was credible and consistent. (March 23,2007 Opinion of the Court, pg.
12-13). John Gregg testified that on October 6, 2005, he talked with Maxwell about
a domestic violence situation and that Maxwell stated he hit the victim with a gun.
(Tr. 1662-1664). Gregg asked Maxwell if he pistol-whipped the victim and
Maxwell said yes, that she has some stiches in her head. (Tr. 1664-1665).
51. At trial, Gregg testified that Maxwell saw a man on television who was sentenced
to eight years for felonious assault and stated that he needed to talk to the victim
to make the incident look like a domestic violence case instead of a felonious
assault. (Tr. 1666). Maxwell and Gregg tried to get the victim to tell the grand jury
that she pushed Maxwell, Maxwell pushed her, she slipped and hit her head on
the stove. (Tr. 1666, 1672). This was done to minimize the victim's story by
eliminating the gun. (Tr. 1672,1740). Gregg further testified that Maxwell told him
he was aware of the TPO against him and an arrest warrant for him. (Tr. 1670).
Gregg further testified that he spoke with the victim because Maxwell knew she
was going to testify before the Grand Jury. (Tr. 1667). Gregg testified that, at
Maxwell's behest, he told the victim that she was supposed to go into the Grand
Jury and stick to the story that it was a simple domestic; she pushed Maxwell,
Maxwell pushed her, she slipped and hit her head on the stove. (Tr. 1671-1672).
52. Gregg further testified that Maxwell told him he tried, but was unable, to get ahold
of the victim to find out how she testified (Tr. 1672-1673). Maxwell told Gregg that
when he finally got ahold of the victim, it felt like she was just blowing him off.
(Tr. 1674). Maxwell called the victim on a three-way conversation and Gregg
heard the victim tell Maxwell that she told the truth to the Grand Jury. (Tr. 1675).
Gregg testified after the victim hung up, Maxwell was very upset and told Gregg
that "the bitch is going to make me kill her" and asked if Gregg knew where he
could get a gun. (Tr. 1676-1677).
53. Days later, Gregg received a phone call from the victim's sister, who sounded
excited, there was a lot of commotion. (Tr. 1678). Gregg called Maxwell to ask
him if he actually killed the victim. (Tr. 1678-1679). Maxwell told Gregg he killed
the victim, that he had followed her, saw her making out with another guy in the
back of a bar, and followed her and the guy to the victim's house. (Tr. 1679-1680).
Gregg testified Maxwell told him the victim's sister called, he answered and they
argued. Maxwell told Gregg that he heard the victim's sister outside, talking
loudly on the phone, and he opened the door and shot at her but she ran. (Tr. 168124

A-72

1682). Gregg testified Maxwell told him he just turned around and shot the victim,
and she fell. (Tr. 1682). Maxwell told Gregg the victim moved, so he shot her
again. (Tr. 1682). Gregg hung up and called 911. (Tr. 1684).
54. This Court finds that Maxwell's claim is barred by res judicata and otherwise
without merit. The Court further finds that the State proved that Maxwell
committed the crime of felonious assault against the victim.
J. Seventh Ground for Relief:
Defense counsel was ineffective for allegedly
allowing Dr. McPherson to act as both investigator and mitigation specialist,
thus depriving Maxwell of proper mitigation.
55. In his Seventh Ground for Relief, Maxwell argued that defense counsel were
ineffective for allowing their mitigation expert, Dr. Sandra McPherson, to act as
both investigator and mitigation expert. Maxwell claimed that "Dr. McPherson
did not perform much of an investigation into mitigation witnessesf,]" only met
with Maxwell's family once, and failed to discover Maxwell's cousin's account of
his alleged organic brain injury. (Petition, pg. 33-3f?). In support, Maxwell
submitted the affidavits of Andy Maxwell and Dr. Layton and defense counsels'
sentencing memorandum.
56. This Court finds that the evidence outside the record provided by Maxwell is only
marginally significant and does not advance his claim.
57. Initially, the Supreme Court of Ohio found " [tjrial counsel had employed a
criminal investigator, a clinical psychologist who was a mitigation specialist, and
another psychologist who was a mitigation expert" and concluded "the defense
had thoroughly prepared for the penalty phase." Maxwell, at 52.
58. Maxwell's claim that Dr. McPherson failed to discover his cousin's account of his
alleged brain injury is contradicted by Dr. McPherson's Psychological Report,
attached to his Petition as Exhibit 5. In her report, Dr. McPherson set forth
Maxwell's statement that in 1985, he got into a fight with "some dude[,]" and fell
and hit his head on a rock. Maxwell stated that he was unconscious and
hospitalized for two days, after which he suffered headaches. (Exh. 5, pg. 4). As
such, Maxwell self-reported his evidence de hors the record to Dr. McPherson, and
it was made part of the record.
59. Further, Dr. McPherson testified at mitigation that Maxwell suffered head trauma
and had neurological problems as a result of falling off a horse and a motorcycle
25

A-73

accident. (Tr. 2167-2168) While Dr. McPherson testified Maxwell was briefly
unconscious after the accident, the Supreme Court of Ohio found otherwise. The
Court found that Maxwell's medical records contradicted his account that he was
rendered unconscious, as the records showed he suffered no loss of consciousness
and reported no headache or neck pain as a result of the accident. Maxwell, at 58.
Therefore, despite the lack of evidence, Dr. McPherson testified Maxwell suffered
head trauma and headaches.
60. Maxwell also claimed that mitigation was inadequate because Dr. McPherson met
family members only once and as a group, rather than individually, precluding
family members from being candid. Maxwell, however, does not state what
mitigation, if any, Dr. McPherson's methods failed to produce that would have
changed the outcome of his conviction or sentence. Family members, as well as
friends, testified "that Maxwell was kind-hearted, a good worker, and a family
man." Maxwell, at 54.
61. Maxwell also claimed that Dr. McPherson testimony about Maxwell's IQ test was
inaccurate, because she was well aware he had taken one 6 months earlier, "even
though repeated use of IQ tests within a short time period yields unreliable results
(the practice effect)." (Petition, pg. 33). Assuming the accuracy of this statement,
Maxwell does not state how Dr. McPherson's alleged error would have changed
the outcome of his sentence. There was no dispute that Maxwell was not mentally
retarded; his IQ tests placed his IQ above 70. See Maxwell, at 49. Maxwell's claim
that trial counsel were ineffective by allowing him to be retested was rejected by
the Supreme Court of Ohio, "But Maxwell has not shown how Dr. McPherson's
testing amounted to deficient performance. Dr. McPherson was an expert in this
area, and she determined which tests to administer. See State v. Leonard, 104 Ohio
St.3d 54, 2004-Ohio-6235, 818 N.E.2d 229,1150." Maxwell, at 49.
62. Finally, Dr. Layton's report did not advance this ground for relief, as his opinion
was based on inference and speculation.
63. This Court finds that Maxwell has failed to demonstrate that counsels'
performance was deficient, under the standards set forth in Strickland.
K. Eleventh Ground for Relief: Defense counsel were ineffective for failing to
present investigate and present witnesses during the trial phase.
64. In his Eleventh Ground for Relief, Maxwell claimed trial counsel failed to present
his side of the story and failed to correct the misperception presented by the State.
26

A-74

According to Maxwell, his story would have been that he "was at least just as much
a victim as McCorkle." (Petition, pg. 36, italics original).
65. As set forth under Maxwell's Fourth, Fifth, Seventh, and Eighth Grounds for
Relief, the evidence Maxwell claimed counsel should have provided would have
been inconsistent with his defense of actual innocence and virtually ensured his
conviction. The burden to demonstrate he acted in self-defense would have been
on Maxwell, requiring Maxwell to admit he committed the felonious assault. As
such, counsels' decision not to present this evidence was a strategic choice and
virtually unchallengeable. See Strickland v. Washington, 466 U.S. 668, 691 (1984).
Maxwell has not demonstrate that counsels' performance was deficient.
66. Maxwell also claimed counsel failed to humanize him and present evidence that
he supported his family. Contrary to Maxwell's claim, the Supreme Court of Ohio
found "the defense thoroughly prepared for the penalty phase." Maxwell, at 52.
Trial counsel's strategy was to convince the jury that Maxwell should receive a
life sentence by emphasizing Maxwell's positive trails and demonstrating that
he had low intelligence, suffered from alcohol dependency, had no significant
history of violence, and would be a good prisoner. Trial counsel also raised
residual doubt as a reason for a life sentence.
In support of this strategy, trial counsel presented the testimony of Maxwell's
family members and coworkers that Maxwell was kind-hearted, a good
worker, and a family man. Dr. McPherson reviewed Maxwell's educational
records and discussed test results that showed his low intelligence. She also
reviewed his prison records and explained how they showed that Maxwell
would be a good prisoner if given a life sentence. Dr. McPherson also explained
that Maxwell had suffered from alcohol dependency. The defense theory,
although unsuccessful, was coherent and fit into the testimony. Counsel made
a strategic decision in presenting the defense mitigation theory and were not
ineffective. See State v. Davis, 116 Ohio St.3d 404, 2008-Ohio-2, 880 N.E.2d 31,1
351-352.

Maxwell, at 54.
67. A review of the record demonstrates that counsel presented substantial evidence
of Maxwell's employment, reputation as a hard worker, and generous nature.

27

A-75

68. Maxwell's brother, William Steward, testified that Maxwell graduated from high
school, obtained vocational training and had heavy equipment operating skills.
(Tr. 2082-2083). Steward testified that Maxwell helped him on construction jobs.
(Tr. 2083).
69. Maxwell's cousin, Herbert Nelson, testified that when he was young, he visited
Maxwell in Arkansas and that Maxwell was a really good guy, never in trouble.
(Tr. 2084-2086). Nelson testified that Maxwell did nothing but work to make ends
meet, worked with him in his tree cutting business, and was a really good worker.
(Tr. 2087-2088).
70. Maxwell's cousin's wife, Veronica Nelson, testified that Nelson and Maxwell
worked cutting trees, that Maxwell was well-dressed, well-behaved, wellmannered and loving, not drunken, not cursing. (Tr. 2092-2095).
71. Maxwell's neighbor, Roscoe Home, testified that he owned a construction
company and Maxwell worked as a subcontractor, excavating and operating
heavy equipment. (Tr. 2096-2098). Horne testified that he lent Maxwell dump
trucks and described him as trustworthy. (Tr. 2098,2100). Maxwell was described
as an excellent worker, quiet but straight to the point, who came to Horne's rescue
to finish a difficult job. (Tr. 2100-2102).
72. Maxwell's brother-in-law, Raynard McNear, testified that he worked construction
with Maxwell, and that Maxwell helped him and gave him employment advice.
(Tr. 2109-2111).
73. This Court finds that Maxwell has failed to demonstrate that counsels'
performance was deficient, under the standards set forth in Strickland.

L. Twelfth Ground
unconstitutional.

for

Relief:

Ohio's

postconviction

procedures

are

74. In his Twelfth Ground for Relief, Maxwell claimed that Ohio's postconviction
procedures are unconstitutional. This Court finds Maxwell's claim is without
merit.
75. Appellate Courts have repeatedly held Ohio's postconviction procedures are
constitutional. See, State v. Hutton, 8th Dist. Cuyahoga No. 76348, 2004-Ohio-3731,
^ 26 ("Notwithstanding the narrow focus of the postconviction review under R.C.
28

A-76

2953.21, we believe this remedy provides adequate safeguards to protect the
constitutional rights of individuals convicted of a criminal offense.") and State v.
Conway, 10th Dist. Franklin No. 05AP-550, 2006-0hio-6219, 27 ("This court and
other, Ohio appellate courts have rejected [claims] that Ohio's post-conviction
statute does not afford an adequate corrective process." State v. Hassler, Franklin
App. No. OlAP-1011, 2002 Ohio 3321, at P73")
76. Based on the foregoing Findings of Fact and Conclusions of Law, this Court finds
that Maxwell has failed to sustain his burden and demonstrate that there has been
a denial or infringement of his rights as to render the judgment void or voidable
and therefore, is not entitled to relief under R.C. 2953.21. This Court further finds
that Maxwell failed to support his claims with evidentiary material setting forth
sufficient operative facts to demonstrate substantive grounds for relief and
therefore was not entitled to a hearing on his Petition. Maxwell's Petition for
Postconviction Relief is denied.
I

IT IS SO ORDERED:

DATE

JUDGE DAVID T. MATIA
Cuyahoga County Court of Common Pleas

29

A-77

